<html>
<title> - CHEMICALS IN COMMERCE ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       CHEMICALS IN COMMERCE ACT

=======================================================================



                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2014

                               __________

                           Serial No. 113-125


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
89-849                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 7_____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     7
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, prepared statement................................   182

                               Witnesses

Carolyn Duran, Director, Supply Chain Ramp and Regulations, Intel 
  Corporation....................................................     9
    Prepared statement...........................................    12
Connie L. Deford, Director, Global Product Sustainability and 
  Compliance, Dow Chemical Company...............................    21
    Prepared statement...........................................    23
    Answers to submitted questions...............................   187
Barry A. Cik, Co-Founder, Naturepedic, on Behalf of Companies for 
  Safer Chemicals................................................    31
    Prepared statement...........................................    33
Roger T. Harris, President, Producers Chemical Company, on Behalf 
  of National Chemical Distributors..............................    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   190
Michael Belliveau, President and Executive Director, 
  Environmental Health Strategy Center...........................    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................   192
Jennifer Thomas, Director, Federal Government Affairs, Alliance 
  of Automobile Manufacturers....................................    88
    Prepared statement...........................................    90
    Answers to submitted questions...............................   198
Mark N. Duvall, Principal, Beveridge & Diamond, P.C..............   118
    Prepared statement...........................................   120
Beth D. Bosley, President, Boron Specialties, LLC, on Behalf of 
  the Society of Chemical Manufacturers and Affiliates...........   130
    Prepared statement...........................................   132
James A. Stem, Jr., National Legislative Director, Transportation 
  Division, Sheet Metal, Air, Rail and Transportation Union......   137
    Prepared statement...........................................   139
Philip J. Landrigan, Dean for Global Health, Ethel H. Wise 
  Professor and Chairman, Department of Preventive Medicine, 
  Professor of Pediatrics, Ichann School of Medicine at Mount 
  Sinai..........................................................   144
    Prepared statement...........................................   146
    Answers to submitted questions...............................   205
Anna Fendley, United Steelworkers................................   158
    Prepared statement...........................................   160
    Answers to submitted questions...............................   209

                           Submitted Material

Discussion draft, dated February 27, 2014, Chemicals in Commerce 
  Act, submitted by Mr. Shimkus \1\
Letters of February 12 to March 14, 2014, submitted by Mr. Tonko 
  \2\
Letter of March 12, 2014, from Adhesive and Sealant Council, et 
  al., to committee and subcommittee leadership, submitted by Mr. 
  Shimkus........................................................   183

----------
\1\ The discussion draft is available at http://docs.house.gov/
  meetings/IF/IF18/20140312/101890/BILLS-113pih-
  ChemicalsinCommerceAct.pdf.
\2\ The letters are available at http://docs.house.gov/Committee/
  Calendar/ByEvent.aspx EventID=101890.


                       CHEMICALS IN COMMERCE ACT

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Whitfield, Pitts, 
Murphy, Latta, Harper, Cassidy, McKinley, Bilirakis, Johnson, 
Upton (ex officio), Tonko, Pallone, Green, DeGette, Capps, 
McNerney, Barrow and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Sean Bonyun, Communications Director; 
Jerry Couri, Senior Environmental Policy Advisor; David 
McCarthy, Chief Counsel, Environment and the Economy; Brandon 
Mooney, Professional Staff Member; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Jacqueline Cohen, 
Democratic Senior Counsel; Greg Dotson, Democratic Staff 
Director, Energy and the Environment; Caitlin Haberman, 
Democratic Policy Analyst; and Ryan Schmit, Democratic EPA 
Detailee.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I would like to call the hearing to order and 
welcome our guests. Obviously we have got a full committee room 
as there is interest in this, and I would like to start by 
recognizing myself for 5 minutes for an opening statement.
    Over the past year we have participated in five hearings at 
which we have dug into TSCA, learning the issues section by 
section, and thinking about how we could make this law work 
better. In recent weeks we have had several conversations on 
the member level. We have exchanged thoughts on where we can 
find common ground. Our staffs have sat down on a bipartisan 
basis for many hours to discuss the language before us in the 
Chemicals in Commerce Act. Those conversations have helped us 
understand each other's perspectives much better. That work is 
continuing and I hope will help us as members to collaborate on 
a bill we can embrace going forward.
    Today we give a wide variety of stakeholders the chance to 
weigh in. We will hear from big and small chemical makers and 
from those who use chemicals to make consumer products. We will 
hear from chemical distributors, labor unions, and other 
interested groups. Their testimony will show that making laws 
is a very dynamic process. I unveiled the discussion draft 
because I think we need a collaborative process with diverse 
input.
    That draft is likely to undergo changes as we work through 
the provisions to find consensus. If each member of this 
subcommittee sat down to write a TSCA bill, we would probably 
have 25 different versions, no two of which would look alike.
    Our job is to craft a bill that reflects the best of all of 
us. So where might there be common ground?
    So far, I think we agree that there are many chemicals 
already in the market that could use closer scrutiny by EPA. We 
need to be sure that EPA has the information it needs to decide 
on the safety of a chemical, but they should not delay action 
merely by asking for information that they don't really need.
    We also agree that EPA should have the authority to impose 
requirements and restrictions on chemicals that pose risks, but 
those restrictions should be for the sake of improving the 
protection of human health and the environment, not simply for 
the sake of regulating.
    We think that chemical manufacturers should be in a 
position to cooperate with EPA on its close scrutiny of their 
products, but they should still be able to protect confidential 
trade secrets in that process. Can we achieve all that? I know 
our committee members on both sides are not only willing to 
try, they are already doing their best to get there and I 
appreciate their hard work and I promise that I will do all I 
can to make the results the best law we can enact for the 
American people.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Over the past year we have participated in five hearings at 
which we've dug into TSCA, learning the issues section by 
section, and thinking about how we could make this law work 
better. In recent weeks we've had several conversations at the 
Member level. We've exchanged thoughts on where we can find 
common ground.
    Our staffs have sat down on a bipartisan basis for many 
hours to discuss the language before us in the Chemicals in 
Commerce Act. Those conversations have helped us understand 
each other's perspectives much better. That work is continuing 
and, I hope, will help us as Members to collaborate on a bill 
we can embrace going forward.
    Today we give a wide variety of stakeholders the chance to 
weigh in. We'll hear from big and small chemical makers, and 
from those who use chemicals to make consumer products. We'll 
hear from chemical distributors, labor unions, and other 
interest groups.
    Their testimony will show that making laws is a very 
dynamic process. I unveiled a discussion draft because I think 
we need a collaborative process with diverse input. That draft 
is likely to undergo changes as we work through the provisions 
to find consensus. If each member of this subcommittee sat down 
to write a TSCA bill, we'd probably have 25 different versions, 
no two of which would look alike. Our job is to craft a bill 
that reflects the best of all of us.
    Where is that common ground?
    So far, I think we agree that there are many chemicals 
already in the market that could use some closer scrutiny by 
EPA. We need to be sure that EPA has the information it needs 
to decide on the safety of a chemical, but they should not 
delay action merely by asking for information that they don't 
really need. We also agree that EPA should have the authority 
to impose requirements and restrictions on chemicals that pose 
risks, but those restrictions should be for the sake of 
improving the protection of human health and the environment, 
not simply for the sake of regulating.
    We think that chemical manufacturers should be in a 
position to cooperate with EPA on its close scrutiny of their 
products, but they should still be able to protect confidential 
trade secrets in that process. Can we achieve all that? I know 
our committee members on both sides are not only willing to 
try, they are already doing their best to get there.
    I appreciate their hard work and promise that I'll do all I 
can to make sure it results in the best law we can enact for 
the American people.

    [The discussion draft is available at http://
docs.house.gov/meetings/IF/IF18/20140312/101890/BILLS-113pih-
ChemicalsinCommerceAct.pdf]
    Mr. Shimkus. With that, I still have some time. Anyone on 
my side? If not, I will yield back my time and turn to my 
ranking member, Mr. Tonko from New York.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. Today we will hear the 
views of a diverse panel of witnesses on the discussion draft 
of the Chemicals in Commerce Act released by Chair Shimkus at 
the end of February. Reforming the Toxic Substances Control Act 
is a very important task. Chemicals are the fundamental 
building blocks for every substance, either natural or human-
made. Years of research, development and investment have 
provided us with the tremendous number of products we use each 
and every day. But due to weaknesses in TSCA, some of the 
chemicals we encounter in the environment each day are exposing 
us to harm, and the list of chemicals in commerce has grown far 
more rapidly than knowledge of their environmental, health and 
safety risks.
    We are all familiar with the old adage ``The dose makes the 
poison.'' The father of toxicology, Paracelsus, introduced this 
concept in the 1500s. Well, we have learned a lot since that 
time about the many factors that influence toxicity of any 
given substance, but we have not been acting on that knowledge, 
at least not with respect to industrial chemicals.
    Since the early 1990s, we have known that infants and 
children are more vulnerable to environmental exposures than 
adults, that the incidence of chronic diseases and other 
developmental disorders has increased and that we are being 
exposed to an increased variety and amount of chemicals in air, 
water, food, and consumer products.
    In 2000, the National Academy of Sciences attributed 28 
percent of neurological disorders to environmental exposures. 
Studies of human tissues, first through the National Human 
Adipose Tissue Study in the 1980s and now for the Center for 
Disease Control's National Health and Nutrition Examination 
Survey, have revealed that our bodies are retaining a number of 
chemical substances as a result of environmental exposures. 
Evidence is mounting that we are not regulating chemicals 
sufficiently. The costs of this inadequate regulatory system 
are being borne by the public, at times the youngest members of 
the public. TSCA was intended to provide information on the 
health and safety of manufactured chemicals and to give the 
Environmental Protection Agency the authority to regulate 
chemicals that had the potential to harm human health or the 
environment.
    Well, after 40 years, there has been very little regulation 
of chemicals under TSCA. We have insufficient health and safety 
information about many of the chemicals we encounter every day, 
and even when a chemical presents a known serious risk, EPA has 
insufficient authority under TSCA to act to protect the public.
    This situation must change. For older chemicals, we need to 
reduce the list of chemicals that are on a perpetual to-do list 
in terms of having basic health and safety information as a 
basis for informed decision-making. For newer chemicals we need 
a more robust review process that offers real assurance that 
new products are safe.
    We need more than an information system or a regulatory 
system. We need a chemicals program that incentivizes 
innovation, good environmental stewardship and the integration 
of human health and sustainability in the product development 
process. In fact, I think these concepts are all included in 
the chemical industry's Responsible Care Program. Frankly, that 
is what consumers are seeking, products that they know are 
safe.
    Finding the formula that will satisfy all stakeholders in 
this issue is a tall order. Mr. Chair, you have taken on a 
tough issue, one that is substantively complex and politically 
contentious. You are to be commended for starting down this 
road. I want to work with you and the other members of this 
committee. I believe other members of the minority are eager to 
participate constructively in this process also, and I thank 
you for providing us an opportunity to engage in this effort.
    These are early days. I understand staff members have had 
some good opening discussions. I am indeed encouraged. But the 
current draft does not yet strike the right balance or meet the 
needs of all stakeholders. I think my observation will be borne 
out by the range of testimony that we will hear today.
    I am hopeful that with constructive input from the entire 
stakeholder community we can produce a bill that will define a 
robust, efficient and effective program for the regulation of 
industrial chemicals offered in our market. I believe if we 
work together, we can offer legislation that will serve the 
public and the industry well and that all the members of this 
committee will be proud to support.
    Thank you, Mr. Chair, for calling this hearing, and to our 
distinguished panel of witnesses, thank you for appearing today 
and for offering your comments on what is a very important 
topic. Thank you. I yield back.
    I have a few seconds remaining----
    Mr. Shimkus. You may.
    Mr. Tonko [continuing]. If I could yield to Representative 
Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Ranking Member. I appreciate your 
time. I just want to like the ranking member, thank our chair 
for putting together the discussion draft. I just want to 
caution, though, this is not a sprint. This is a marathon, and 
there are a lot of issues. And I know we are going to have 
additional hearings over the next few months to do this because 
if we are going to really reform this law with everybody on 
board, it is going to take that effort.
    And I just appreciate Chairman Shimkus in your effort to do 
it and look forward to continue working with you. The 
discussion draft is a work in progress, and I know our staffs 
have met and will continue to work together.
    Mr. Shimkus. The gentleman yields back his time, and the 
Chair thanks my colleagues for their kind words.
    The Chair now recognizes the chairman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, and we do welcome all 
of our witnesses today, especially Jennifer Thomas of the 
Alliance of Automobile Manufacturers for taking the time to 
join us from Brussels. So we know, Jennifer, that you are 
sharing our Buy America message with Europe, and we wish you 
very much success.
    You know, today is an important milestone in our efforts to 
modernize current law regulating the management of U.S. 
chemicals, a law that has been on the books since 1976. The 
discussion draft before us, the Chemicals in Commerce Act, 
begins our committee conversation on how to craft reforms to 
our Nation's chemical regulatory system.
    We have got two objectives, one, to increase public 
confidence in the safety of chemicals that are in U.S. markets, 
and to streamline commerce among States and with other 
countries to further our manufacturing renaissance.
    Put simply, the Chemicals in Commerce Act is in fact a jobs 
bill. Why? Just put yourselves in the shoes of someone 
contemplating whether to invest in a new factory that produces 
or uses chemicals and what location maximizes opportunity. With 
options that span the globe, one would look critically at three 
factors to help in the decision, the cost and supply of feed 
stocks, especially oil and gas; availability of capable and 
reliable workers; and ease of market access.
    Market access has two parts. First, is the buyer confidence 
in the product, the second is market rules free of trade 
restrictions. The Chemicals in Commerce Act will improve 
confidence in chemical products because EPA will apply sound 
science to its safety determinations.
    If EPA determines that a chemical does pose risks, EPA will 
detail those risks and will write a rule placing any necessary 
requirements or restrictions on it, which will apply in all 50 
States. This will allow producers to operate in a seamless U.S. 
market.
    So let us go back to the investor's decision. Access to oil 
and gas? The U.S. is looking pretty good. Reliable workforce? 
Our workers are the best and many are available right now. 
Market access? The Chemicals in Commerce Act completes the 
package, giving the United States green lights on all three 
factors.
    We need to do all that we can to promote America's 
manufacturing sector and create the jobs that we want. This 
bill will help create those jobs not only in plants that 
manufacture chemicals but also in plants that use them to make 
cars, computer chips, and thousands of other goods.
    So the bill is good news for jobs, the economy, and for a 
safer America. We need to roll up our sleeves and get it done. 
We need to work in a bipartisan basis. And my prediction is we 
can get to the finish line. We need to do it, and I appreciate 
the leadership of both sides as we begin to move the ball down 
the field. And I yield back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today is an important milestone in our efforts to modernize 
current law regulating the management of U.S. chemicals--a law 
that has been on the books since 1976. The discussion draft 
before us, the Chemicals in Commerce Act, begins our committee 
conversation on how to craft reforms to our Nation's chemical 
regulatory system. We have two objectives: to increase public 
confidence in the safety of chemicals that are in U.S. markets, 
and to streamline commerce among States and with other 
countries to further our manufacturing renaissance.
    Put simply, the Chemicals in Commerce Act is a jobs bill. 
Why? Just put yourself in the shoes of someone contemplating 
whether to invest in a new factory that produces or uses 
chemicals and what location maximizes opportunity. With options 
that span the globe, one would look critically at three factors 
to help in the decision: 1) the cost and supply of feedstocks 
(especially oil and gas); 2) availability of capable and 
reliable workers; and 3) ease of market access.
    Market access has two parts: first is buyer confidence in 
the product, and second is market rules free of trade 
restrictions.
    The Chemicals in Commerce Act will improve confidence in 
chemical products because EPA will apply sound science to its 
safety determinations.
    If EPA determines a chemical does pose risks, EPA will 
detail those risks and will write a rule placing any necessary 
requirements or restrictions on it, which will apply in all 50 
States. This will allow producers to operate in a seamless U.S. 
market.
    So let's go back to the investor's decision. Access to oil 
and gas? The U.S. is looking very good. Reliable workforce? Our 
workers are the best and many are available right now. Market 
access? The Chemicals in Commerce Act completes the package, 
giving the USA green lights on all three factors.
    We need to do all we can to promote America's manufacturing 
sector and create jobs. This bill will help create 
manufacturing jobs in not only those plants that manufacture 
chemicals, but also in plants that use them to make cars, 
computer chips, and thousands of other goods.
    This bill is good news for jobs, for the economy, and for a 
safer America. Let's roll up our sleeves and get it done.

    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. Today this 
subcommittee is examining a new proposal to amend the Toxic 
Substances Control Act. According to the National Cancer 
Institute, researchers have estimated that as many as two and 
three cases of cancer are linked to some environmental cause. 
Half of those are linked to tobacco and diet, but toxic 
chemicals are also an important factor.
    The President's Cancer Panel found that reform of the Toxic 
Substances Control Act is critically needed to reduce the 
incidents and burden of cancer in this country. The Centers for 
Disease Control conducts biomonitoring in order to understand 
when chemicals end up in human bodies, and CDC has found that 
chemical exposures are ubiquitous. For example, according to 
the Center's most recent data, 75 percent of the people tested 
have the commonly used chemical, triclosan, in their bodies. 
That chemical has been shown to interfere with hormone levels 
in animals.
    The CDC also found five different PBDEs in more than 60 
percent of the participants. These chemicals have been linked 
to serious health concerns including rising autism rates, and 
these chemicals are showing up in the bodies of Americans at 
levels 3 to 10 times higher than found in European populations.
    This is an issue we must get right. Unfortunately, this 
bill would take us in the wrong direction. Letters of 
opposition have poured in. It has been called a ``gross 
disappointment'' and another quote, ``wish list tailored to 
ensure regulatory inaction.''
    If enacted, this proposal would weaken current law and 
endanger public health. That is why I cannot support the bill 
in its current form.
    For many years, the public health, labor and environmental 
communities have worked to improve EPA's ability to require 
testing of chemicals under TSCA. But this draft would restrict 
existing testing authority so that EPA could only require 
testing in the limited set of circumstances. On top of that, 
the Catch-22 of current law would remain. The Agency would be 
required to identify risk before being authorized to test for 
risk. This is the roadblock that has stymied the Agency for 
years.
    When new chemicals are brought to market, the draft creates 
a new exemptions for industry and applies new procedural 
requirements to limit EPA action. For existing chemicals, the 
draft would arbitrarily limit what risks EPA could consider in 
assessing safety. And for dangerous chemicals, EPA would be 
blocked from taking action unless alternatives are already 
available. On preemption, the draft goes well beyond even the 
Senate bill which has been rightfully criticized for preempting 
essential State-level protections.
    The current law is not working. The suffering and 
uncertainty we saw in West Virginia when hazardous chemicals 
spilled into the water supply has demonstrated the need for a 
more effective TSCA. That is why I want to work with Chairman 
Shimkus and Chairman Upton on TSCA reform. I am a realist. I 
know House Democrats can pass a TSCA bill without Republican 
support. But I also believe, Mr. Chairman, that House 
Republicans cannot enact a law without the support of House 
Democrats.
    There is a lot of work that needs to be done to get a bill 
we can all support. But I am committed to making this effort. I 
hope we pay close attention to the testimony today and then 
renew our efforts to find common ground. And I would be pleased 
to yield time, yes, to Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. I just want 
to add my comments to those of all the people on our side of 
the aisle. Mr. Chairman, I want to thank you for introducing 
this discussion draft and then having hearings and discussions. 
It feels kind of fun to be back to regular order now, and I am 
happy about it. I am also happy that you have worked with a 
group of us on the other side of the aisle to really help do 
this.
    I agree with the ranking member that this is a Herculean 
effort, one that we have tried for many decades now to 
revitalize and reauthorize TSCA in a way that makes sense from 
a scientific perspective.
    I agree with many on this side of the aisle. This 
discussion draft is not perfect, but I am hoping that we can 
continue to work together in a bipartisan fashion to craft 
legislation that is really going to protect the health of the 
citizens of this country.
    Thank you, Mr. Chairman, and thank you, Mr. Waxman, for 
yielding.
    Mr. Waxman. Thank you. And Mr. Chairman, our TV screen 
shows a woman in a box with earphones on her head. Hi. How are 
you doing? I yield the balance of my time to her.
    Mr. Shimkus. The chairman yields back his time. She will 
have her own time, Mr. Waxman. So I appreciate again my 
colleague's nice promise and just pledge to keep working. It is 
a draft, and I want to remind people, and that is the purpose 
of this hearing, is to get your comments to help us then go 
back and start working on this.
    So we have a lot of individuals to testify. We have two 
panels, so we are going to get started, and I will introduce 
your whole bio across the board first so everyone knows, and 
then I will direct your time specifically to you. You will have 
5 minutes. There are a lot of folks here, so if you could keep 
to 5 minutes as close as possible, that would help us all. Then 
we will go to the question-and-answer period of time, and then 
we will get the second panel up.
    So at the first panel we have Dr. Carol Duran, Director of 
the Chemical Risk and Compliance, Global Sourcing and 
Procurement with Intel Corporation. Also joining her is Ms. 
Connie Deford, Director of Product Sustainability & Compliance 
of Dow Chemical Company. Mr. Barry Cik, Founder of Naturepedic 
on behalf of the Companies for Safer Chemicals. We have Mr. 
Roger Harris, President of Producers Council on behalf of the 
National Chemical Distributors. Mr. Michael Belliveau, 
Executive Director, Environmental Health Strategy Centers and 
then the lady in the box, Ms. Jennifer Thomas, Director of 
Federal Government Affairs for the Alliance of Automobile 
Manufacturers. And just a side story, this hearing was 
originally scheduled for last week. We did postpone it at the 
request of my colleagues to give more time to go over the 
discussion draft. Ms. Thomas was scheduled to be here, and 
unfortunately she is in Brussels. So it is probably pretty late 
there. But that is why we are doing this over new technology.
    So with that, I would like to ask Dr. Duran to give her 
opening statement. You are recognized for 5 minutes. OK. Let us 
make sure the mike is on and pull it as close as you can to 
you.
    Ms. Duran. OK. Better?
    Mr. Shimkus. That is better. Thank you.
    Ms. Duran. Thank you.

 STATEMENTS OF CAROLYN DURAN, DIRECTOR, SUPPLY CHAIN RAMP AND 
  REGULATIONS, INTEL CORPORATION; CONNIE L. DEFORD, DIRECTOR, 
  GLOBAL PRODUCT SUSTAINABILITY AND COMPLIANCE, DOW CHEMICAL 
 COMPANY; BARRY A. CIK, CO-FOUNDER, NATUREPEDIC, ON BEHALF OF 
  COMPANIES FOR SAFER CHEMICALS; ROGER T. HARRIS, PRESIDENT, 
  PRODUCERS CHEMICAL COMPANY, ON BEHALF OF NATIONAL CHEMICAL 
   DISTRIBUTORS; MICHAEL BELLIVEAU, PRESIDENT AND EXECUTIVE 
 DIRECTOR, ENVIRONMENTAL HEALTH STRATEGY CENTER; AND JENNIFER 
   THOMAS, DIRECTOR, FEDERAL GOVERNMENT AFFAIRS, ALLIANCE OF 
                    AUTOMOBILE MANUFACTURERS

                   STATEMENT OF CAROLYN DURAN

    Ms. Duran. Mr. Chairman and Ranking Member Tonko, thank you 
for the opportunity to testify on behalf of Intel. My name is 
Carolyn Duran, and I am responsible for supply chain regulatory 
risk mitigation for chemicals used in Intel's manufacturing 
technologies globally.
    I appreciate your work to consider legislation to modernize 
the regulation of chemicals in commerce. Founded in 1968, Intel 
Corporation is the world's largest semiconductor company with 
net revenues in 2013 of $52.7 billion. Intel continues to 
invest in U.S. manufacturing with over half of our roughly 
100,000 person employee base residing in the United States.
    Intel's latest manufacturing technologies are developed and 
implemented in Oregon and Arizona, and roughly \3/4\ of our 
microprocessor manufacturing is domestic.
    Since our inception, Intel has developed and implemented 
the revolutionary technologies necessary to achieve the 
transistor scaling known as Moore's Law resulting in the 
smaller, faster, more efficient electronics that drive today's 
economy. Advancements in chemistry and material science and an 
ability to experiment with novel materials in a timely fashion 
are key to these successes. As an example, our recent changes 
in transistor structures require the development of many novel 
materials, and we continue to research new materials and 
processes to develop the radical innovations necessary to 
deliver the integrated circuits that meet the needs of 
tomorrow.
    Fundamentally, we believe that these advancements should go 
hand in hand with environmental sustainability. It is from this 
background that Intel supports chemical management approaches 
that enable environmental protection, safe use of chemicals and 
U.S. technology innovation. Additionally, Intel works closely 
with industry partners, including the Semiconductor Industry 
Association and the Chemical Users Coalition. While I will 
share specific examples from my own experience, many of the 
concepts are also applicable to a wide range of industries that 
are downstream users of chemicals.
    We are interested in chemical legislation through companies 
that supply us with chemicals and also as a downstream user or 
processor of chemicals. With regard to the former, the ability 
of our chemical suppliers to get new chemicals approved in a 
timely way, to ensure the continuity of supply, and to have 
intellectual property protected are all essential for Intel 
manufacturing competitiveness.
    With respect to the latter, our processes are tightly 
controlled and perform to exacting standards. In order to 
ensure quality and consistency in the production process, 
chemicals used in semiconductor manufacturing is subject to 
significant and redundant controls and safety measures. 
Accordingly we appreciate a risk-based approached to chemicals 
management policy which will allow the continued safe use of 
innovative chemicals to produce leading-edge technologies.
    We offer specific comments on the draft discussion in two 
areas, first, managing transitions to alternatives. When the 
EPA determines that a particular chemical is likely to result 
in an unreasonable risk of harm to human health or the 
environment, we recognize that the EPA may decide to consider 
replacement of that chemical for particular uses. In this 
scenario, we appreciate an approach that allows downstream user 
companies to first develop a technically feasible alternative 
that can be demonstrated to be safer than the existing chemical 
and also allows for a reasonable implementation timeline.
    In the interim, EPA can adopt appropriate measures for 
reducing exposure and mitigating the chemical's risk. The 
discussion draft includes these concepts in Section 6(f) and 
these are critically important for highly technical, complex 
manufacturing processes.
    As an example, in 2006, the semiconductor industry 
announced a plan to end non-critical uses of perfluorooctyl 
sulfonates, or PFOS, in our manufacturing processes and to 
develop substitutes in critical applications. At the time the 
work began, PFOS was use pervasively throughout the industry. 
EPA provided the transition time necessary for us to develop 
and implement safer alternatives while maintaining product 
quality and technical requirements. This allowed Intel to 
successfully replace PFOS in over 300 discreet applications 
across 11 manufacturing technologies.
    Second, articles. The treatment of articles under TSCA is 
important to Intel and many other industries that market 
products in finished form that are classified as articles. Our 
products are comprised of many chemicals and materials used in 
extremely small volumes. These materials are typically bound in 
a monolithic fashion and cannot be separated from the devised 
and are not released to the environment during normal use. 
Accordingly, we believe the nature of the chemical and article 
should be taken into account in regulatory decision-making. 
Where there is minimal risk of release or consumer exposure, 
articles should be treated differently than in cases where this 
likelihood of exposure is high.
    For this reason, Intel supports language in Sections 5 and 
6 of the discussion draft that allows EPA to address chemical 
substances and specific articles when warranted, targeting 
situations where there is risk from exposure to the chemical in 
the article and where the risk cannot be managed through a 
focus on the chemical itself. This provides a valuable roadmap 
that will allow EPA to provide protection for health and the 
environment while also providing important predictability for 
the many industries that manufacture products considered 
articles in the context of TSCA.
    We look forward to working with this subcommittee and the 
Congress as a whole as it continues its review of U.S. 
chemicals legislation. Thank you for the opportunity to submit 
this testimony on behalf of Intel.
    [The prepared statement of Ms. Duran follows:]

    [GRAPHIC] [TIFF OMITTED] 

    
    Mr. Shimkus. Thank you. The Chair now recognizes Ms. Connie 
Deford from the Dow Chemical Company. You are recognized for 5 
minutes.

                 STATEMENT OF CONNIE L. DEFORD

    Ms. Deford. Chairman Shimkus, Ranking Member Tonko and 
members of the subcommittee, I am pleased to testify today and 
offer comments on an issue that is critically important to the 
Dow Chemical Company, reforming of the Toxic Substances Control 
Act.
    Reforming this important piece of legislation would allow 
for a more modernized regulatory process and a stronger and 
more effective Federal program for the chemicals we 
manufacture. As the Global Director for Product Sustainability 
& Compliance for Down, I am responsible for ensuring that 
thousands of products that we put out on the marketplace are 
safe for our employees, our customers and the environment. On 
behalf of Dow, I am here to offer our support for the Chemicals 
in Commerce Act.
    Dow is a leading global manufacturer of advanced materials. 
We supply customers in over 160 countries and really strive to 
connect chemistry and innovation with the principles of 
sustainability to help provide solutions, improve solutions, 
for everyday lives. Our diverse chemistry can be found in 
applications that range from food ingredients to electronics to 
water purification, alternative energy including solar and wind 
and personal care products.
    Dow is committed to sustainability. Our ambitious 2015 
goals underscore this commitment along with our actions to 
ensure product safety. We also have product stewardship 
management systems in place to ensure that our products are 
safe for their intended uses.
    As a global company, Dow strives to go beyond compliance 
with multiple regulatory programs across different countries. 
We have developed and adhere to our own high standards for 
product safety as well as voluntary industry initiatives like 
Responsible Care. Our policy is to comply with that highest 
standard of safety, whether regionally or our own, to ensure 
that each of our products are safe for their intended uses and 
ultimately for our customers and the environment.
    In order to build upon our collective effort, we believe 
that the United States does need a stronger and more effective 
Federal program to ensure that chemicals in commerce are safe 
for their intended uses. This is why we are in support of TSCA 
reform. Since 1976, the chemical industry has grown 
dramatically, and yet, TSCA has remained the same. Therefore, 
Dow supports a TSCA that creates a chemical management system 
that will be effective and efficient, not just now but long 
into the future. We believe reforming this outdated law will 
improve public confidence in the safety of chemicals produced 
and used in our country, will encourage innovation and 
ultimately help create jobs and continue fueling America's 
manufacturing renaissance.
    Overall, we would highlight a reformed TSCA should include 
the following. We believe it is critical that existing 
chemicals as well as new chemicals meet the safety standard. We 
think it is critical that there is objectivity and EPA's 
evaluation of safety using the best available scientific 
information. We believe EPA should be allowed to take actions 
that are both timely and effective. We think it is critical 
that the Agency is in a position to take timely decisions. 
Provide incentives for innovation and sustainable chemistry and 
enhance the U.S. competitiveness of companies manufacturing 
here.
    We have evaluated the Chemicals in Commerce Act and feel 
strongly that this criterion has been met, and we agree with 
the approaches and recommendations. We have also concluded that 
it represents a significant step forward for our Federal 
chemical management system and allows us to further support 
this vital piece of legislation.
    Dow urges the subcommittee to move this bill forward so 
that the enactment of TSCA reform becomes a reality this year. 
By modernizing TSCA, we can foster public confidence on how 
chemicals are evaluated for safety in their applications. We 
can help the United States maintain its competitive advantage 
as the global leader in innovation for manufactured products 
and provide certainty for business investment. We stand ready 
to assist Congress in its efforts so that we at Dow are able to 
ensure the benefits for society that can really be made 
possible through the science of chemistry. Thank you.

    [The prepared statement of Ms. Deford follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognizes Mr. Barry Cik. Sir, you are recognized for 5 
minutes. There is a button. Yes, it is kind of hard to see.

                   STATEMENT OF BARRY A. CIK

    Mr. Cik. Got it. Thank you, Mr. Chairman and members of 
this subcommittee. My name is Barry A. Cik. I am a Board 
Certified Environmental Engineer, a Certified Hazardous 
Materials Manager, a Certified Diplomate Forensic Engineer, a 
State of Ohio Professional Engineer, and an author of a 
textbook for Government Institutes on Environmental 
Assessments. I am a co-founder of Naturepedic, a manufacturer 
of certified organic mattresses and bedding products for 
children and adult.
    More importantly, I am here as a representative of the 
American Sustainable Business Council which includes the 
Companies For Safer Chemicals Coalition, a project of ASBC. The 
American Sustainable Business Council is a growing coalition of 
business organizations and businesses committed to advancing 
market solutions and policies to support a vibrant, just and 
sustainable economy. Founded in 2009, ASBC and its 
organizational members now represent more than 200,000 
businesses and more than 325,000 business leaders across the 
United States. The Companies For Safer Chemicals Coalition 
represents a new alliance of companies focused on chemical 
reform based on the principles of transparency, safety and 
innovation.
    Forty years ago, when I was in engineering school, I was 
taught the solution to pollution is dilution. That was 
incorrect. I soon found out that Lake Erie, which is where I 
live close to, was dying. However, thanks to U.S. Congress, you 
passed RCRA. RCRA stopped the poor industry practices of 
disposing chemicals into the lake and many waterways across the 
country, of course. To this day, though, you cannot have any 
commercial fishing in Lake Erie because the mercury level is 
way too high. The price that we pay is too high.
    A few years later, I realized, I observed where the 
gasoline companies were swearing that that can't make gas 
without lead. However, our environment was becoming 
contaminated with all that lead. Well, once again, U.S. 
Congress stepped into the picture and said no, you can't do 
this. And guess what? They stopped their crying and they made 
gas without lead, and our cars are doing just fine.
    Eleven years ago, I walked into a baby store to buy a crib 
mattress for our first grandchild. What I encountered was vinyl 
with phthalate chemicals, antimony, perfluorinated compounds, 
flame retardants that included all kinds of really nasty stuff, 
pesticides, allergenic materials. I was shocked.
    The moment of truth was when the salesperson told me, come 
on, knock it off. If the product wasn't safe, the government 
wouldn't allow it to be sold. Well, I knew better. I decided 
there and then it was time for me to stand up and say no to 
toxic chemicals in consumer products. I decided to use the 
power of business to make a difference and, together with my 
two sons, we created Naturepedic, whose products are now sold 
by over 500 retailers across the Nation.
    On behalf of the American Sustainable Business Council, 
Companies for Safer Chemicals Coalition, and on behalf not only 
of my children and my grandchildren, but on behalf of your 
children and your grandchildren, I am asking you to do the 
right thing again, just like Congress did it in the past.
    Our chemicals are, for the most part, are simply not 
regulated. Let us be honest, they are really not regulated. 
Industry reportedly produces about 250 pounds of chemicals 
every year for every man, woman, and child in this country, and 
there are over 80,000 chemicals available for industry to use, 
with very little regulation for any of it. This is not good for 
business.
    Industry stopped polluting our lakes when the law, 
supported by science, told them to stop. Industry stopped 
adding lead to gasoline when the law, supported by science, 
told them to stop. We need a system-wide change now to tell 
industry to stop using toxic chemicals in consumer products.
    Many business leaders, myself--
    Mr. Shimkus. Mr. Cik, your time is almost out, if you could 
wrap up.
    Mr. Cik. All right.
    Mr. Shimkus. I would be very generous in allowing you to 
keep going.
    Mr. Cik. I will wrap up within 1 minute. We are asking----
    Mr. Shimkus. Well, how about 30 seconds?
    Mr. Cik. We are asking you to----
    Mr. Shimkus. You already ran over.
    Mr. Cik. Fine. We are asking you to restrict or eliminate 
toxic chemicals, incentivize the manufacture of safer 
chemicals, create the clarity needed in the marketplace, remove 
this unreasonable risk criteria which just doesn't work, hasn't 
worked ever. And you know it. Create some deadlines minimum 
requirements for identifying, assessing and regulating high-
priority chemicals; disclose all ingredients to the public, 
provide health and toxicity testing, and avoid providing 
regrettable substitutes when changing ingredients.
    Feel free to communicate with me or the American 
Sustainable Business Council. As well, we have given you some 
written information. Thank you for your time and consideration.

    [The prepared statement of Mr. Cik follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. The gentleman's time expired. The Chair now 
recognizes Mr. Roger Harris. You are recognized for 5 minutes. 
Welcome.

                  STATEMENT OF ROGER T. HARRIS

    Mr. Harris. Chairman Shimkus, good morning Ranking Member 
Tonko, and members of this subcommittee, I appreciate this 
opportunity to testify. My name is Roger Harris. I am President 
of Producers Chemical Company, and I am here today on behalf of 
the National Association of Chemical Distributors for which I 
currently serve as Chairman of the Board. NACD supports TSCA 
reform and believes the discussion draft is a significant step 
forward.
    Producers Chemical is a small business located near Chicago 
that generates approximately $20 million in annual revenue and 
employs 25 workers which is an average-sized NACD member. 
Chemical distributors are a critical link in the industrial 
supply chain. The typical distributor buys chemicals in bulk, 
breaks them down into smaller packaging, in some cases blending 
them, and then delivers them to an estimated 750,000 industrial 
customers. Our customers turn these chemicals into products 
like paints and coatings, cosmetics, food and pharmaceuticals 
and numerous other products that are essential to our everyday 
lives.
    NACD members make deliveries every 7 seconds while 
maintaining a safety record that is twice as good as all 
manufacturing combined. NACD members are leaders in environment 
health, safety and security through implementation of NACD's 
Responsible Distribution program, a third-party verified 
management practice system established in 1991 as a condition 
of membership. We would welcome the opportunity to discuss with 
you why we take Responsible Distribution so seriously.
    I will briefly discuss several issues in my written remarks 
to make clear we support the draft's approach and spend the 
rest of my time on the testing and reporting provisions which, 
with some very important clarifications, would also be positive 
steps forward.
    By allowing States to regulate chemicals until EPA has 
taken action and making clear that citizens may still have 
their day in court if they have suffered damages because of 
another's actions, the draft's preemption provision strikes the 
right balance and improves on the Senate version. Likewise, the 
draft protects confidential business information which is 
critical to innovation and competitive markets while ensuring 
emergency responders and doctors have access to lifesaving 
information.
    The draft also creates a 1-year guidance deadline that will 
prod EPA to action and prioritizes chemicals as high or low to 
focus EPA's resources on substances of the highest concern.
    We also have some suggestions. Under the existing statute, 
the EPA has been limited in its ability to order testing of 
chemicals and mixtures. Under Section 4 in the draft EPA is 
given significantly enhanced authority to require testing. That 
authority is guided by Section 4(b) requiring the Administrator 
to issue a Statement of Need. We fully anticipate EPA's primary 
focus would appropriately be on chemicals in commercial, not 
the millions of mixtures.
    Nevertheless, we recommend that the introduced bill 
specifically clarify Section 4(b) so that if the Administrator 
were to require testing of a mixture, she explain her Statement 
of Need why testing only the chemicals comprising the mixture, 
rather than the mixture itself, is either infeasible or 
provides insufficient information.
    This would keep the focus on the chemicals of concern 
rather than on millions of mixtures, reduce unneeded testing 
and would place no additional hindrance on EPA in carrying out 
this section.
    NACD strongly supports a risk-based approach to chemical 
management, which means EPA needs information not only about 
hazards but exposures under chemicals and intended conditions 
of use. Currently manufacturers and importers are required to 
provide that but often do not know the end uses of the 
products. We agree with the testimony in your last TSCA hearing 
that to accomplish the aim of a risk-based regulatory scheme 
the law should expressly allow the Agency to collect necessary 
use-related information from downstream processors who are 
formulators of consumer and industrial products. At the same 
time, reporting obligations should not simply be shifted to 
distributors who do not manufacture the end-use products but 
are simply the middleman in the chemical supply chain for 
thousands of products. But the draft is unclear on its 
requirements. We recommend clarifying that EPA has the 
authority to require the information from downstream processors 
who are formulators of consumer and commercial products but 
also explicitly state EPA should minimize duplicative reporting 
under this section. Downstream formulators have the best 
understanding of how they use the chemicals they buy from us.
    Requiring upstream distributors to report who have 
sometimes thousands of different industrial customers would 
generate massive amounts of paperwork and get little useful 
information for the EPA. If duplicative reporting were required 
of our companies, which average 26 employees, we estimate that 
more of a third of the overall reporting burden would fall on 
our sector alone.
    Lastly, current law does not define small processor. While 
not a significant issue under existing law, it will become 
extremely important for small business in numerous industry 
sectors under expanded reporting provisions. That definition 
should reflect the normal definitions of a small business as 
outlined by the Small Business Administration.
    Thank you very much for your time and attention.

    [The prepared statement of Mr. Harris follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. Thank you. And now I would like to recognize 
Mr. Michael Belliveau. You are recognized for 5 minutes.

                 STATEMENT OF MICHAEL BELLIVEAU

    Mr. Belliveau. Thank you, Mr. Chairman, Ranking Member 
Tonko----
    Mr. Shimkus. Again, yes. Let us make sure that the mike 
is----
    Mr. Belliveau. There we go. The green light is on.
    Mr. Shimkus. Just check our transcriber. If he is happy, 
everybody is happy.
    Mr. Belliveau. Chairman Shimkus, Ranking Member Tonko, 
members of the committee, thank you for this opportunity to 
testify today. My name is Mike Belliveau. I am the Executive 
Director of the Environmental Health Strategy Center, a public 
health organization, and serve as senior advisor to Safer 
Chemicals, Healthy Families, a national coalition.
    I appreciate the efforts of this committee to work for TSCA 
reform. I have spent many hours over the last decade working 
toward the same goal, and it is worthy of achieving. 
Unfortunately, the Chemicals in Commerce Act as drafted, like 
its Senate counterpart, would endanger public health. In its 
quest for meaningful TSCA reform, the discussion draft takes 
two steps forward but 12 steps backwards. Those 12 fundamental 
problems with the draft legislation are detailed in my written 
testimony. They include rollbacks in existing TSCA authority, 
retention of fatal flaws in current TSCA and aggressive 
overreach that would chill other needed protections.
    Now, let me illustrate just a few of the worst features of 
this bill draft by way of example. Imagine your family at home 
after a long day. Your kids or your grandchildren are jumping 
up and down on the couch. Your pregnant daughter or niece plops 
down and curls up to rest on the couch, very normal activities, 
each of which sends a puff of invisible dust into the air that 
is laden with flame-retardant chemicals that come from the 
couch. Those chemicals can be measured in the bodies of your 
family members, and scientists have shown that those chemicals 
disrupt thyroid hormones and can harm the developing brain.
    Now, the House draft fails to protect those vulnerable 
populations including pregnant women and children. It requires 
that when a safety determination is made that such groups be 
considered but does not explicitly require that the chemical be 
found to be safe for those vulnerable populations. 
Consideration is not enough. Protection of the health of 
pregnant women and children should not be optional. It should 
be mandatory.
    Now, coming back to couches, Dr. Heather Stapleton, a 
chemistry professor at Duke University, has analyzed the flame-
retardant chemicals added to couch cushions. Based on her 
research, your couch falls into one of two groups based on its 
age. If you bought the couch more than 10 years ago, it likely 
contains Penta, one of the PBDE flame retardants. These 
chemicals don't break down in the environment. Now, the House 
bill retains TSCA's flawed, unreasonable risk standard and 
includes the same onerous or similar onerous burdens in current 
TSCA that prevented EPA from banning asbestos. Applied to Penta 
10 years ago, EPA would not have been able to restrict this 
flame-retardant chemical in couches for the same reason.
    The House bill would also roll back existing authority to 
regulate chemicals in consumer products like couches. It makes 
it more difficult to regulate significant new uses of 
chemicals. This is in direct response to EPA's proposed actions 
on the chemical cousin of Penta known as Deca. It also would 
prevent and take away EPA's authority to regulate the disposal 
of old couches, even though they likely pose significant risks 
of health.
    The bill also violates states' rights from day one of 
enactment of the law. More than 1,600 chemicals would be taken 
off the table. States would be preempted immediately. It would 
get worse over time. States would not be able to collect 
information on flame retardants and chemicals.
    Now, if you have one of the newer couches, it contains some 
other chemicals that have not been adequately tested, including 
a new chemical that EPA let into the market mistakenly called 
TBB. Under the House draft, it would make it easier for 
hazardous new chemicals to enter into the market, and it would 
make it more difficult to require testing of those chemicals or 
their effects over the environment and public health. 
Similarly, it would maintain grandfathered confidential claims 
without justification.
    Now, I have spent over the last 4 years or so more than 
1,000 hours sitting across the table with chemical 
manufacturers, including Ms. Deford, including flame-retardant 
manufacturers, including consumer product manufacturers, 
including big box retailers, all discussing our common interest 
in TSCA reform. Unfortunately, this draft bill does not reflect 
that dialogue. It will not restore consumer confidence in the 
safety of chemicals in everyday products. Just the opposite. 
The bill in fact is far outside the mainstream of the chemical 
management policies in place today in major U.S. corporations, 
in many States, among our trading partners and internationally. 
This unfortunately can't be considered a serious starting point 
for meaningful TSCA reform.
    The good news is that like other stakeholders, we are ready 
to roll up our sleeves and develop a consensus approach that is 
feasible that would protect public health and the environment, 
and we look forward to the opportunity to work with you toward 
that end. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Belliveau follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shimkus. And I thank you. Now, last but not least, Ms. 
Jennifer Thomas, Director of Federal Government Affairs. She is 
the lady in the box. We appreciate your patience, and you are 
recognized for 5 minutes.

                  STATEMENT OF JENNIFER THOMAS

    Ms. Thomas. Thank you, Chairman Shimkus, Ranking Member 
Tonko and members of the subcommittee. I have a feeling that 
when I return to Washington, my new nickname is going to be 
Woman in the Box.
    But my name is Jennifer Thomas, and I am the Director of 
Government Affairs for the Alliance of Automobile Manufacturers 
which is a trade association that represents 12 automakers that 
make roughly three out of every four new vehicles sold in the 
U.S. each year. Please accept my utmost apologies for not being 
there in person this morning, but I, as you know by now, I am 
currently in Brussels working on another four-letter acronym 
that begins with a T, TTIP, which is the Transatlantic Trade 
and Investment Partnership. And like TSCA, TTIP is a key 
priority for auto makers, and specifically, we are advocating 
for an agreement that aligns U.S. and E.U. automotive safety 
standards. So our objective here in Brussels is consistent with 
what auto makers hope to achieve through TSCA reform back home, 
a clear and consistent set of rules for manufacturers that 
protects the health and safety of all our customers. The 
Alliance appreciates the thoughtful and thorough approach the 
committee has taken on this important issue. We commend 
Chairman Shimkus for releasing a discussion draft that is a 
very good start to address the issues that were raised over the 
last year. We understand that the chairman has asked for input 
and that we are at an early stage in this process. We pledge to 
be a constructive partner and look forward to working with the 
subcommittee and other stakeholders as we move forward.
    The draft Chemicals in Commerce Act recognizes the needs 
for a single, national regulatory program for comprehensively 
managing chemicals in commerce. We realize that inaction at the 
Federal level has created a situation in which States feel 
compelled to regulate chemicals on their own, creating a 
patchwork of State standards. But in many cases, States simply 
do not have the adequate resources to implement their own 
chemical regulatory programs.
    Additionally, conflicting and inconsistent State regulatory 
programs present insurmountable obstacles to effective chemical 
management for large industry sectors, in particular, 
manufacturers of complex durable goods like automobiles. Auto 
makers design and build vehicles to meet an array of customer 
needs and demands and to comply with thousands of pages of 
Federal emissions and safety standards.
    As a practical matter, auto makers simply cannot 
manufacture vehicle on a State-by-State basis. We believe the 
approach taken in this draft is more in line with today's 
manufacturing realities. The draft preserves the State's 
ability to take action on a chemical if the State believes that 
there is a risk present that has not yet been addressed by EPA, 
and we believe that is entirely appropriate. But once EPA has 
taken action on a chemical substance, this decision should be 
viewed as the law of the land.
    The Alliance also supports the manner in which this 
discussion draft seeks to regulate chemicals and articles. This 
discussion draft will allow EPA to target chemical substances 
in articles where the risk to health and environment cannot be 
addressed by placing restrictions on the chemical itself. This 
approach recognizes the challenges of regulating chemical 
substances and--products. The average automobile has 30,000 
unique components, and each individual component is made up of 
multiple chemicals and mixtures. Most automotive components are 
obtained from suppliers of finished products and are integrated 
into the vehicle. Regulating the construction and the assembly 
of automobiles on a component-by-component basis is burdensome, 
inefficient and most importantly unnecessary to effectively 
manage chemical substances.
    But we understand that there may be circumstances where EPA 
must prevent significant risk of exposure by issuing 
restrictions on chemicals in articles. In these instances, the 
draft proposes a reasonable process for identifying suitable 
alternatives and should allow sufficient lead time to implement 
any substitutions.
    Additionally, we strongly believe that automotive 
replacement parts should be exempt from any TSCA requirements. 
In this regard, we urge the subcommittee to consider a full 
outright exemption for replacement parts rather than the narrow 
exemption for those parts manufactured prior to the compliance 
date which is proposed in this discussion draft. Such an 
exemption would avoid creating unnecessary disruptions to the 
supply of older model replacement parts, impacting the ability 
to fulfill consumer warranties, recalls and repairs of the 
existing fleet. This is a significant issue considering that 
the average age of a vehicle on U.S. roads today is more than 
11 years old.
    We appreciate the opportunity to offer our views on the 
draft Chemicals in Commerce Act. We stand ready to work with 
the subcommittee as this draft moves through the legislative 
process. Again, my apologies for not being there in person, and 
I thank you and I would be happy to answer any of your 
questions.
    [The prepared statement of Ms. Thomas follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Mr. Shimkus. Thank you very much, and we have done this a 
couple times. And even though the time lag on the photo was a 
little disturbing, we heard you loud and clear.
    So I am going to start, recognize myself for 5 minutes and 
start with you, Jennifer, because of the compelling testimony 
on U.S. manufacturing, the automobile sector, which is always 
credited as being one of our major manufacturing, showing sign 
of growth. American-made cars compete here in the U.S. against 
products made as far away as Asia and Europe. Isn't price a big 
factor in that competition?
    Ms. Thomas. Oh, absolutely, 100 percent.
    Mr. Shimkus. And to compete on price, you have to be 
efficient. Is that correct?
    Ms. Thomas. Yes, sir.
    Mr. Shimkus. And isn't inefficiency hampered if you can't 
predict government regulations or if regulations change from 
State to State?
    Ms. Thomas. Absolutely, yes.
    Mr. Shimkus. And that is all part of this debate of what we 
are trying to raise. The first panel's testimony is very 
compelling, and it is trying to strike that balance. And I 
would just remind everyone, this is a draft. You would be 
angrier if it was a bill.
    Mr. Harris, are you saying you don't think you should ever 
report use and exposure information or just not when a 
downstream formulator is already reporting?
    Mr. Harris. That is--no, I am not saying we should never 
report, exactly what you said. We are a distributor for 
middlemen. We buy from manufacturers, we repack them, we 
resell. Our customers are varied and in many sorts of 
industries. We have an idea as a part of our responsibility 
under Responsible Distribution to understand what they are 
making with those products that we sell them, that they are 
being used responsibly. We don't always know and generally 
don't know how they are using them. So it is more appropriate 
for a downstream processor to be the one that actually reports 
on the actual hazard and exposure information of each of the 
chemicals that they are using.
    Mr. Shimkus. Yes, I appreciate the testimony. I have been 
trying to deal with this issue of when you report, when you 
don't report.
    Mr. Harris. Right.
    Mr. Shimkus. When things are transported as a distinct 
entity or when they are maybe mixed in before the 
transportation. And it is a difficult challenge. I would 
encourage you to keep working----
    Mr. Harris. Yes, and we certainly are not opposed to 
reporting if that information is not available anywhere else.
    Mr. Shimkus. And Dr. Duran, you support the discussion 
draft's tailored treatment of articles? And you mentioned that 
in your opening statement. Another part of this debate is the 
finished product or the articles that go on. Can you elaborate 
a little bit more on the tailored treatment of articles?
    Ms. Duran. So I think it goes in line with what you were 
saying. When the finished product, in our case an integrated 
circuit, when it itself is not exposed to the public or has no 
risk of the chemicals used in that product getting into the 
public use, we would like the restrictions to be in line with 
that use, whereas in the description over here with the couch, 
for example, where the exposure is quite obvious, then the 
restrictions and regulations around that particular use of the 
same chemical would be in line with that exposure.
    Mr. Shimkus. And Ms. Deford, on your discussion on the net 
benefits and alternatives and new and burdensome requirement 
for the EPA, you know, the Obama administration has already 
done executive orders in line with trying to say that there 
should be an evaluation of, of our understanding, that they 
should, you know, an evaluation of net benefits and 
alternatives. Do you agree?
    Ms. Deford. Absolutely. We see the Agency doing that today. 
I mean, most recently is their implementation of their TSCA 
work plan chemical approach. They really are focusing in on 
those applications, those areas representing greatest potential 
for exposure, setting aside areas where there is minimal and 
less potential benefit and considering the economic aspects as 
well.
    Mr. Shimkus. And to follow up to you, Ms. Deford, how will 
the discussion draft change the practices of your company when 
it comes to assessing chemical risk?
    Ms. Deford. As I noted in my testimony, Dow prides itself 
on having a really strong program, but we think the greatest 
opportunity is to have greater collaboration with the Agency, 
so also to be able to be in a position to share more of what we 
are doing with other stakeholders that are interested. 
Questions are out there about information that is available, 
and we see this discussion draft as an opportunity to share 
more.
    Mr. Shimkus. Can you also follow up on advances in science 
and technology and how that would impact this debate?
    Ms. Deford. You know, as noted by several of us today----
    Mr. Shimkus. I think your mike----
    Ms. Deford. Sorry. As noted by several of us today, 
chemistry is at the building block of any innovative products. 
And so it is critical that any policy allows that free flow of 
innovation. Certainly it needs to be in a controlled manner, 
and we support the need for management of that. But we 
certainly need to be mindful of in order to get--we know much 
more today than we did 20 years ago as we were developing 
materials. And so we need to have the opportunity to get those 
chemistries, those chemicals out there to support the 
innovative products that are going to keep the United States 
competitive.
    Mr. Shimkus. Thank you very much. The Chair now recognizes 
the ranking member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. We need TSCA reform 
because of the public's systematic exposures to industrial 
chemicals without sufficient safeguards to protect public 
health. With that in mind, Mr. Cik, your story drives this 
concern home. I share your instincts to do everything as a 
subcommittee and committee and Congress to protect our children 
and grandchildren.
    When you went to purchase a crib mattress and saw that the 
available products contained phthalates, brominated flame 
retardants and other chemicals, alarm bells went off. What were 
some of the adverse health effects you were concerned about 
that could be caused by exposure to those compounds?
    Mr. Cik. I learned not to talk medicine. I once testified 
in court and tried that, and they beat me up because I am not a 
doctor. I am an environmental engineer. However, that said, the 
information in the literature is pretty clear. As a matter of 
fact, if you will allow me, I have something here that I will 
quote. This is not from any tree-huggers or environmental 
extremists. This is going to be from the American Academy of 
Pediatrics, your regular, everyday pediatricians. I have a few 
quotes for you if you permit me. The American Academy of 
Pediatrics recommends that chemical management policy in the 
United States be revised to protect children. It is widely 
recognized to have been--this is from TSCA. It is widely 
recognized to have been ineffective in protecting children. The 
growing body of research indicates potential harm to child 
health from a range of chemical substances. There is widespread 
human exposure to many of these substances. These chemicals are 
found throughout the tissues and body fluids of children. 
Manufacturers of chemicals are not required to test chemicals 
before they are marketed, and I am going to just add to it, 
they are in baby products. They are everywhere.
    Continuing, concerns about chemicals are permitted to be 
kept from the public. Those who propose to market a chemical 
must be mandated to provide evidence that the product has been 
tested. OK? That is not me. That is the American Academy of 
Pediatrics. They are everyday pediatricians. I agree with 
everything here. The literature is full of information.
    Mr. Tonko. OK. And might I ask if we could have that 
admitted----
    Mr. Cik. Absolutely.
    Mr. Tonko [continuing]. Into the record. What role do State 
regulations, including consumer product laws and labeling 
requirements, have in informing consumers to choose safer 
alternatives?
    Mr. Cik. Look, the fact of the matter is we have to stop 
using toxic chemicals in consumer products. If you are not 
going to do it, the States are going to do it. You can't deny 
the problem. And if you try to stop the States, you are just 
going to have some serious public issues, all right? Do not try 
this preemption thing. The States have the right to regulate 
their land and their air and their water and the chemicals used 
in whatever they need to regulate within their States. Please 
do not try to stop that.
    Mr. Tonko. Thank you. My home State of New York has taken 
action to address several dangerous chemicals, and I would be 
concerned about any proposal that wiped out those protections.
    Mr. Belliveau, you have worked at the State level to get 
consumer protections put in place, is that correct?
    Mr. Belliveau. Yes.
    Mr. Tonko. And can you describe some of the important State 
protections that would be preempted by this draft?
    Mr. Belliveau. Yes, and they are very complementary to 
Federal actions. For example, two States require reporting of 
chemicals in everyday products. This is information that EPA 
does not have. Two other States require product manufacturers 
to assess the availability of safer alternatives. This is also 
information EPA does not have. The House bill would preempt 
both of those information collection requirements. In fact, 
tomorrow the State of California is going announce its first 
product chemical priorities under its new State program which 
would be preempted if EPA took action on chemicals under the 
House draft.
    Lastly, some States also require warnings of exposure. This 
is authority that EPA also does not exercise. So State 
regulation of chemicals is essential and complementary, and 
like other environmental statutes, there should be a 
partnership between the State and Federal Government.
    Mr. Tonko. I think both of you gentlemen are highlighting 
one of the problems with the draft legislation. Under this 
proposal, a new chemical can be brought to market with no 
accompanying health and safety information. If it is a new 
chemical, is it likely that there would be studies available to 
enable EPA to assess potential health and safety problems 
within 90 days?
    Mr. Belliveau. Well, today under TSCA, the new chemicals 
program is touted as relatively more successful, even though 
fewer than 15 percent of new chemicals have adequate health and 
safety data when they are allowed to enter commerce. Yet, even 
with that record, the House draft would roll back authority to 
review new chemicals. It would raise the bar by making it 
harder to require testing of new chemicals. It would take away 
important authority that EPA has currently to require consent 
orders that impose conditions on new chemicals, making it more 
difficult to take those actions. So it goes backwards in the 
wrong direction.
    Mr. Tonko. Mr. Chair, I see my 5 minutes are exhausted so I 
yield back.
    Mr. Shimkus. The gentleman yields back his time. And the 
Chair now recognizes the gentleman from West Virginia for 5 
minutes, Mr. McKinley.
    Mr. McKinley. Mr. Chairman, is Ms. Thomas still available?
    Mr. Shimkus. I have no idea.
    Mr. McKinley. There she is.
    Mr. Shimkus. Oh, there she is.
    Mr. McKinley. The lady in the box. Now we lost her again.
    Mr. Shimkus. No, I think she can hear you.
    Mr. McKinley. We know that they are using less and less 
steel in our automobiles, and my area we have lost two major 
steel manufacturers to foreign steel. So I am curious about how 
much of the U.S. steel, American-made steel, not something that 
we have rolled that has come from Brazil or Japan, but how much 
is American steel in use in automobiles today? Do you have an 
idea of that?
    Ms. Thomas. Thank you for the question, Congressman. I 
believe the estimate is at 25 to 30 percent of U.S. steel is 
currently being used in automotive applications.
    Mr. McKinley. And do you concur that we are using less and 
less steel in our automobiles today?
    Ms. Thomas. Yes, because of the stringent fuel economy 
standards, we are having to light weight motor vehicles. So you 
have seen a trend towards more aluminum being used.
    Mr. McKinley. So what you are saying is, if I heard her 
correctly, was only about--of the steel that is used, 75 
percent of it is coming in from off-shore and only 25 percent 
is American made, is that correct?
    Ms. Thomas. No, I don't think that is the correct figure. I 
believe that of the U.S. steel usage in the United States, 25 
percent goes to automotive applications.
    Mr. McKinley. OK. I was just wondering how much steel in an 
automobile goes into it, but maybe I can take some percentages 
from that. So there are approximately, what, 8 million steel 
workers nationwide or 8 million workers dependent on the 
automobile. What percent would that be, of steel workers would 
be affected by this? Do you have an idea?
    Ms. Thomas. I am not sure of the correct percentage, the 
exact percentage, Congressman, but of the 8 million jobs that 
are tied to the auto industry, there are certainly----
    Mr. McKinley. Quite a few of them?
    Ms. Thomas [continuing]. More than a handful that are steel 
workers, yes. And I can work to get that exact figure for you.
    Mr. McKinley. I would appreciate that. Are you there 
promoting the global market accessibility for cars made in 
America or just what--can you share what your goal is in Europe 
today?
    Ms. Thomas. I would be happy to. So we are advocating for a 
strong regulatory convergence package in the transatlantic 
agreement in order to streamline and harmonize the United 
States' and E.U. safety regulations.
    Mr. McKinley. As a result of that, are you hearing from 
anyone there or what is the issue with chemical safety laws in 
the United States? Does it affect at all the marketability of 
our products overseas?
    Ms. Thomas. You know, I haven't spoken to anyone here 
directly on that issue, but I would say that the issue of 
multiple inconsistent State laws would certainly impact--would 
become a global issue because it diverts valuable resources 
from research and development of advanced technologies and 
safety technologies away from those technologies, more toward 
regulatory compliance.
    Mr. McKinley. There was testimony about replacement parts. 
Do you have thoughts about--have you been able to hear all the 
testimony?
    Ms. Thomas. Yes, I have.
    Mr. McKinley. Does the tracking system that has been 
discussed, does that all include replacement parts as well?
    Ms. Thomas. The tracking system that the auto industry has 
worked with--auto makers have worked with our suppliers to 
create that tracks all substances that go into our motor 
vehicles.
    Mr. McKinley. Do you agree with the testimony that has been 
presented so far on this?
    Ms. Thomas. Well, the replacement part issue is certainly 
very important to our industry because of the very large 
existing fleet on the roads. And we need to be able to continue 
to service them. As I mentioned in my statement, the average 
car on the road is more than 11 years old. So it is a real 
issue, and just grandfathering in already manufactured 
replacement parts as this discussion doesn't quite go far 
enough. And we would like to see a total exemption for 
automotive replacement parts.
    Mr. McKinley. OK. Thank you very much. My time has run out. 
But thank you for your testimony. Thank you.
    Mr. Shimkus. The gentleman's time----
    Ms. Thomas. Thank you.
    Mr. Shimkus [continuing]. Expired. The Chair now recognizes 
the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and as I said earlier, 
I want to thank you for holding the hearing on the Chemicals in 
Commerce Act discussion draft. And thank you and the witnesses 
for being with us today.
    We are likely today--the TSCA reform is a contentious 
issue, and toxic chemicals and how they are regulated touches 
millions of Americans from the industries who make the 
chemicals to the workers in the plants and the retailers, 
consumers and communities that live there. That speaks why TSCA 
hasn't been reauthorized for 4 decades. Nevertheless, we have 
had a number of hearings in our committee, and we are moving an 
effort down the road to do something.
    But let me first ask a question of every witness. Yes or 
no, should TSCA safety standard be based solely on health? Ms. 
Duran? Dr. Duran?
    Mr. Shimkus. Microphones, please remember. And Gene, can 
you pull yours a little bit closer to you, too?
    Mr. Green. OK.
    Ms. Duran. So I would say no, we would also need to look at 
exposure, not----
    Mr. Green. OK.
    Ms. Duran [continuing]. An inherent hazard, but exposure as 
well.
    Mr. Green. I will amend my question then. Should it be 
based solely on health and exposure?
    Ms. Deford. Yes, a safety assessment should be.
    Mr. Cik. According to the National Academy of Science and 
the American Academy Pediatrics, the focus of TSCA needs to 
change, needs to focus--instead of biological mechanisms of 
effects, it needs to focus on the toxic effects. And it also 
needs to provide for an aggregate assessment of all pathways of 
chemical exposures that go along----
    Mr. Green. I just need a yes or no. I only have 5 minutes. 
I don't need to hear that if you----
    Mr. Cik. Well, that was----
    Mr. Green. Could it be based on----
    Mr. Cik. That was my----
    Mr. Green [continuing]. Health or should it be based on 
health exposure, bottom line?
    Mr. Cik. Based on--yes. Yes. The answer is yes.
    Mr. Harris. Yes, sir, I would agree with that.
    Mr. Belliveau. Yes, sir.
    Mr. Green. OK. One of the questions I have, and I know 
there is some concerns about access to the civil justice system 
that complements I think chemical regulation. Is it imperative 
that TSCA reform also ensure that an additional layer of 
accountability and public safety is protected, people being 
able to go to the civil justice system? Any or all can answer.
    Mr. Belliveau. Yes, sir, those rights should be protected.
    Mr. Green. OK. One of the questions I had, and I might ask 
it of the next panel, because the draft raises the question if 
a substance is designated as a low priority by EPA and then 
several years later scientific study comes out that shows that 
substance may be hazardous to human health, and again, based on 
exposure, should the EPA have the authority to consider new 
information and authority to go back and recategorize the 
substance? Now again, we are talking about scientific data, not 
in--you know, that is peer reviewed, not something that 
somebody decides they want to have a result on. Should EPA be 
able to go back and visit those, those low-priority chemicals?
    Ms. Duran. I would say yes. If there is new information 
that says the risk that was currently determined is incorrect, 
then certainly they should be able to reopen the discussion.
    Mr. Green. OK.
    Ms. Deford. Absolutely. If there is new information, they 
need to assess it.
    Mr. Green. Mr. Cik?
    Mr. Cik. My understanding is that the current draft had 
some limitations on using new information. So my recommendation 
would be that the new information should apply to all 
chemicals, not just certain listed chemicals which as my 
understanding would be restricted right now. So yes, of course 
EPA has to be able to go back for everything.
    Mr. Green. OK. Mr. Harris?
    Mr. Harris. Yes, I would agree with that. I would think if 
there is new information available that is scientific 
information based on risk and exposure that it should be 
allowed to be revisited.
    Mr. Green. OK.
    Mr. Belliveau. Yes. May I just say the EPA needs the 
authority up front to make sure they have adequate data before 
they designate a substance as low priority.
    Mr. Green. Well, and one of our concerns is sometimes EPA 
takes a long time to make a decision. And so I know we have to 
do resources there to make sure those decisions can be made in 
a reasonable amount of time.
    Let me--I have a minute left I think. Ms. Deford, I am glad 
to see Dow Chemical testifying today because a lot of my 
constituents work at the Dow Chemical plant in Deer Park and a 
great corporate citizen. For my question, is Dow Chemical 
supportive of government incentives for investments in 
sustainable chemistry?
    Ms. Deford. Absolutely. We think it is key.
    Mr. Green. Would Dow like to see TSCA to incentivize 
industry to develop more sustainable chemicals?
    Ms. Deford. Yes. I mean, we think the discussion draft goes 
that direction with the attention around new chemicals. We 
think there are other opportunities for inclusion.
    Mr. Green. What information do you believe manufacturers 
should provide the EPA in order to make an accurate 
prioritization of the decision?
    Ms. Deford. I think the manufacturers need to provide all 
the information they have relative to hazards to human health 
and the environment as well as how the applications that they 
are used and what kind of exposure results from those 
applications.
    Mr. Green. Should EPA have the authority to consider all 
information, scientific numeric studies by academia, government 
industries regardless of the funding source?
    Ms. Deford. They should look at all sources, but they need 
to consider the weight of the evidence as they are doing their 
evaluations.
    Mr. Green. Because that is a balancing act. That is what we 
get from a regulator, ultimately a court of law.
    Ms. Deford. Absolutely.
    Mr. Shimkus. Gentleman's time----
    Mr. Green. Chairman, I know I am out of time.
    Mr. Shimkus. You are.
    Mr. Green. Thank you for your time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
panel being here to speak with us today. Ms. Deford, continuing 
with you, your written testimony comments that chemistry is 
such an enabling science that a poorly designed policy can 
impact the competitiveness of business through the entire chain 
of commerce. Could you elaborate on that, tell us what you 
mean?
    Ms. Deford. Well, if you look at it first from a new 
chemical standpoint, if the new chemical process is delayed, 
then it is preventing our customers' customers. Sometimes we 
are four or five steps removed from that product that our 
consumers use. And so we need to get that new chemistry out 
there that is based on the science understanding today. So that 
is a key aspect.
    For existing chemicals, the other part of it is there is 
great confidence there is lots of information out there on 
existing chemicals that people don't understand, and we see 
treatment and certainty around existing chemicals to be 
critical.
    Mr. Johnson. In layman's terms, you know, we talk about a 
resurgence of manufacturing. Am I understanding what you are 
saying correctly, if we don't do this part of it right and if 
we don't get new chemicals out there in a timely manner, 
responsibly, then it really affects the entire commerce chain, 
right? I mean, you have got manufacturers that are waiting on 
those chemicals. They are waiting for that as a raw material, 
perhaps in development in other innovations. Is that what you 
are talking about?
    Ms. Deford. Absolutely. Essentially everything that we 
touch starts from a chemical building block.
    Mr. Johnson. All right. Good. Ms. Deford, are the CBI 
projections afforded under CICA an improvement over current 
TSCA and if so, why?
    Ms. Deford. We think they are because they provide greater 
clarity than what is in existing TSCA. And I think it provides 
more information. It gives stakeholders an increased confidence 
that that those elements that we are protecting are deserving 
of being protected.
    Mr. Johnson. OK. All right. And you know, some people have 
argued that making EPA look at the benefits and alternatives in 
a new and burdensome requirement is a new and burdensome 
requirement to the EPA, yet you state that these matters are 
supposed to be routine for EPA under both Clinton and Obama 
administration executive orders. So in your experience does the 
EPA apply the intent and the requirement of those executive 
orders when implementing current TSCA?
    Ms. Deford. Yes, we believe they are. We think the 
discussion draft will provide further opportunities for the 
Agency to apply those executive orders.
    Mr. Johnson. OK. All right. Mr. Chairman, those are all the 
questions I have. I will be proud to relinquish my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
will now recognize the gentleman from California, Mr. Waxman, 
for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. When this 
discussion draft was first released to the public, I indicated 
I couldn't support it in its current form. But I am open to 
working to improve it. Now 2 weeks later we haven't made much 
progress, and the purpose as you indicated of this hearing is 
to highlight some of the issues in this proposal that some of 
us feel might be flaws that need to be corrected.
    Mr. Belliveau, I would like to ask whether this draft is 
stronger or weaker than current law on a number of points. Is 
this draft stronger or weaker than current law in terms of 
EPA's ability to require testing of chemicals?
    Mr. Belliveau. It is weaker.
    Mr. Waxman. In terms of EPA's ability to assess risk, 
including risks from all uses of chemicals, stronger or weaker?
    Mr. Belliveau. It is weaker than it needs to be. Existing 
law is a little vague on that policy.
    Mr. Waxman. So existing law needs to be clarified?
    Mr. Belliveau. Correct.
    Mr. Waxman. Is it stronger or weaker in terms of EPA's 
ability to manage risk and actually regulate chemicals?
    Mr. Belliveau. It is equivalently burdensome and onerous to 
current law.
    Mr. Waxman. And what would you change in that regard?
    Mr. Belliveau. In that respect, the burden needs to shift 
some to the industry. EPA needs to make a clear and clean 
safety determination based strictly on health. If a chemical 
fails to meet a safety standard, the burden needs to be in 
significant part on the industry to demonstrate why a potential 
solution may be too expensive or too technically difficult. The 
current draft puts all the burden on EPA, which would delay 
action.
    Mr. Waxman. Is this draft stronger or weaker in terms of 
requiring an adequate review of new chemicals?
    Mr. Belliveau. It is weaker.
    Mr. Waxman. How about on regulating articles?
    Mr. Belliveau. It is weaker.
    Mr. Waxman. How about in how it provides for the sharing of 
information that ought to be in the public domain?
    Mr. Belliveau. It is weaker.
    Mr. Waxman. Weaker? Hearing that, it should be no surprise 
to anyone that we have received so many letters of opposition 
to this draft. Hundreds of businesses, public health groups, 
unions and environmental groups have announced their opposition 
to this proposal. But the industry is supportive of this draft, 
and to some extent I think that support is because the proposal 
would preempt State and local laws.
    So in order to better understand that perspective, I would 
like to turn to our industry witnesses. Mr. Harris, can you 
identify for the record a specific State or local law that you 
believe is important that Congress preempt?
    Mr. Harris. Well, I guess first of all, I look at 
preemption in this regard as similar to what the hazardous 
materials regulations are under the Department of 
Transportation. We ship product all over the country. If we had 
different regulations in every State that we went into, it 
would be impossible to operate. I see the same thing here. You 
know, we don't sell into California----
    Mr. Waxman. Well, that is theoretical. Are there any 
specific laws that you think we ought to preempt because they 
interfere with interstate commerce?
    Mr. Harris. Not that I can think of right off the top of my 
head, no, sir
    Mr. Waxman. You can't think of a single one?
    Mr. Harris. Not off the top of my head I cannot.
    Mr. Waxman. Mr. Belliveau, what do you think about that? If 
he is unable to identify a specific law, that is troublesome. 
Why should we preempt?
    Mr. Belliveau. We shouldn't, Mr. Waxman. There have been no 
demonstrated impairment of interstate commerce, no undue 
economic impact on industry that will justify overturning more 
than 100 State laws that have been enacted in the last decade 
to regulate toxic chemicals.
    Mr. Waxman. Ms. Deford or Dr. Duran, do you have any--can 
you identify a specific law that needs to be preempted?
    Ms. Duran. It didn't say we are looking for specific laws 
to be preempted but rather to drive consistency. So if the EPA 
takes action that addresses the concern of the specific State, 
applying nationally will then prevent minor modifications 
across State lines and easier for us to comply. So we are 
looking from a consistency perspective.
    Mr. Waxman. So are you looking prospectively or is there 
some law that you think ought to be preempted now?
    Ms. Duran. More future looking.
    Mr. Waxman. Uh-huh. Ms. Deford?
    Ms. Deford. The laws out there today require reporting 
and--I mean, they are focused a lot on reporting. They are 
focused also on those materials that have been proven safe by 
other regulatory agencies. So again, I would look at we are 
looking forward to the potential for such laws to have an 
impact on flow of interstate commerce compared to where we are 
today.
    Mr. Waxman. But the draft preempts all existing laws. So 
what are the existing laws that are troublesome?
    Ms. Deford. OK. Our understanding is that the preemption 
would occur at a point when the Agency has made a determination 
as to whether or not that material meets the safety standard. 
So that is our understanding.
    Mr. Waxman. Yes, well, I can see preempting future laws but 
preempting existing laws that can't be identified as 
troublesome as a problem.
    TSCA reform represents an opportunity to strengthen 
protections for human health and the environment. I fear this 
bill would undermine what protections currently exist, and as 
we undertake this effort, I hope we can focus on the real 
problems with the law and not be sidetracked with hypothetical 
problems. And Mr. Chairman, I hope we can work together to 
improve this draft and make progress toward a bill that can 
garner support from a wide range of stakeholders and members on 
both sides of the aisle. My time has expired. Thank you.
    Mr. Shimkus. I thank my colleague. The Chair now recognizes 
the gentleman from Florida, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you very much and thank you for your 
testimony. First question for Dr. Duran, some people support a 
regulatory system based largely upon hazards. If exposure were 
not part of the regulatory determination, what would that mean 
for Intel and its ability to produce cutting-edge components? 
Thank you, for Dr. Duran.
    Ms. Duran. In some cases it could mean that we wouldn't--
the pool of new chemicals and materials that we need to drive 
innovation would simply not be available to us. They would be 
restricted in any use and not allow for that innovation that we 
need to develop it for our products and our technologies if 
used in a safe and responsible manner. So exposure is critical 
to us.
    Mr. Bilirakis. Thank you. Second question for Dr. Duran, 
CICA, the bill, provides that when EPA issues a new rule to 
restrict a chemical--pardon me, I have laryngitis--that it 
takes into account whether technically feasible alternatives 
would be available. It also provides for a reasonable 
transition timeline for implementation. Can you elaborate on 
that? Does this provision discourage innovation in your 
opinion?
    Ms. Duran. In this case I would say no. We used the example 
of PFOS in my oral and written testimony to say in some cases 
that can actually drive further innovation as long as we are 
given the capability and time to find that alternative. And in 
that case we work with chemical manufacturers on those 
innovations.
    Mr. Bilirakis. What would be the typical lead time to 
develop and deploy an alternative chemical if one's use is 
restricted?
    Ms. Duran. There are no generic timelines. As Ms. Deford 
had said, many cases in the early development of a chemical we 
do look at alternatives that are available and are picking the 
one that meets technical needs with the lowest hazard profile. 
So the opportunity for a drop in replacement to be readily 
available is pretty much nil. So in the case of PFOS, it took 
over 10 years. For another case where it might be a single 
application and innovation has happened in parallel, it may be 
much shorter than that. But PFOS was over 10 years.
    Mr. Bilirakis. OK. Next question for Dr. Duran. Does the 
draft TSCA provide the flexibility for manufacturers to 
transition to alternatives when a chemical is banned? If not, 
what improvements would you recommend to allow such 
flexibility?
    Ms. Duran. We believe the draft as written does provide for 
that opportunity for us to pursue alternatives and then 
transition them into our existing manufacturing processes.
    Mr. Bilirakis. Thank you very much. I yield back----
    Mr. Shimkus. Will the gentleman yield to me?
    Mr. Bilirakis. Yes, I will.
    Mr. Shimkus. A question for the panel. This is the Energy 
and Commerce Committee. And historically, do you know how we 
got our evolution as a committee? Dr. Duran?
    Ms. Duran. I do not, no.
    Mr. Shimkus. Ms. Deford? Mr. Cik?
    Mr. Cik. Never been here. I have no clue.
    Mr. Harris. No, sir, I do not.
    Mr. Shimkus. All right.
    Mr. Belliveau. No, sir.
    Mr. Shimkus. OK. Well, as the new Constitution that we 
passed, States were close to fighting States. Part of the new 
Constitution that we are under today was the Interstate 
Commerce Clause with the sole purpose of making sure that 
States wouldn't block commerce flowing from State to State. So 
I would pose that as part of this debate. If you understand the 
history of this country and the union that we now are under and 
the Federal system that we have, it is based upon the national 
government incentivizing and supporting interstate commerce.
    So I know my friends who will claim states' rights will 
make a proclamation of the indignation, but I would say 
historically, if you would look at the founding of this 
country, that the Interstate Commerce Clause is really the 
foundational principle that has unified these States, and I 
think allowing this whole preemption debate is Constitutionally 
pretty clear that we have the authority to do that.
    And I thank my colleague for yielding his time, and I yield 
back. And I would now recognize my colleague from New Jersey, 
Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I am pleased the 
committee has convened this legislative hearing, and I wanted 
to, you know, commend you for your efforts to address the 
severe flaws in the underlying TSCA statute. We all share a 
common goal, to ensure that the chemicals in everyday products 
that Americans use are safe.
    But let me first say that I have some serious concerns with 
the Chemicals in Commerce Act discussion draft. I believe that 
Sections 5 and 6 need changes to ensure the proper review of 
new and existing chemicals. And I won't get into all my 
concerns, but I also hope to see greater protections for 
vulnerable populations and a refined preemption scheme.
    But again, I don't see these concerns as insurmountable. I 
remain confident that both sides of the aisle can come together 
to craft a bipartisan bill that achieves our common goal of 
protecting Americans from dangerous chemicals.
    Now, let me ask--TSCA requires that when EPA needs to 
regulate a chemical it must use the least burdensome option, 
and this least burdensome requirement is widely recognized as 
one of the biggest obstacles to effective implementation of 
TSCA. Since EPA's failed attempt to regulate asbestos and the 
Corrosion Proof Fittings decision, EPA has been saddled with 
performing time and resource-intensive cost-benefit analysis on 
every potential alternative, not just the final regulatory 
control option selected. The draft removes the language least 
burdensome but it replaces this with a number of troubling 
similar terms like proportional to the risk, net benefits and 
cost-effective compared to alternatives.
    I wanted to ask Mr. Belliveau, in your assessment, do these 
terms preserve the substance of the least burdensome 
requirement?
    Mr. Belliveau. Yes, they do. I believe they are equivalent 
in their impact.
    Mr. Pallone. And how will these changes affect EPA's 
ability to protect the public from substances known to be 
dangerous, like asbestos?
    Mr. Belliveau. Well, they will perpetuate a deficiency in 
which EPA was not able to ban asbestos, even though it kills 
10,000 Americans per year. The same equivalent factors are 
preserved in the new draft.
    Mr. Pallone. Now, under the net benefits language, the 
proposal says that EPA should not regulate unless the action 
would result in net benefits. This appears to say that if 
preventing exposure to a toxic chemical will cost a company $10 
million and the reduced exposure would only prevent childhood 
illnesses valued at $8 million, then EPA can't take the action. 
Does that seem ethically--well, it seems ethically wrong to me. 
What do you think about it?
    Mr. Belliveau. Well, I think it is further troubling in 
that there are not adequate data usually to quantify the health 
benefits, and we need to be mindful of the burden that it 
places on the Agency, burdens that should be placed on the 
industry.
    Mr. Pallone. The bill also creates a new requirement 
barring EPA from restricting a chemical's use unless there is 
an alternative currently available for that use without 
additional cost. And without that requirement, EPA restrictions 
on dangerous chemicals could provide market opportunities for 
innovation and safer alternatives. But do you have concerns 
about that requirement as well?
    Mr. Belliveau. Yes, I have very strong concerns, I think, 
as should any business person because what the act draft 
requires is that we substitute EPA's judgment for a business 
judgment as to what may constitute a safer alternative. Do we 
really believe that the Environmental Protection Agency can 
determine whether a particular substitute works for Intel or 
not? No, Intel is equipped to determine that. That is an 
impossible burden on EPA to achieve.
    Mr. Pallone. All right. Let me move to Mr. Cik. How would 
that provision affect companies like yours that innovate safer 
alternatives?
    Mr. Cik. It would level the playing field certainly for 
small businesses, and leveling the playing field where 
everybody has to work by the same rules drives innovation. That 
is good for business if you level the playing field, and that 
is what we need to do is level the playing field. Nobody can 
put toxic chemicals in their products. Period. It will drive 
innovation and is good for business.
    Mr. Pallone. I appreciate that. Yes, I am just concerned, 
Mr. Chairman, that these burdensome requirements have the 
potential to create what Jim Jones called paralysis by analysis 
and to protect the market position of dangerous chemicals and 
articles, and I think they should be removed from the draft to 
enable the EPA to act and to encourage innovation.
    Again, I do appreciate, Mr. Chairman, your efforts to 
draft--you know, to move forward. And I think that if we 
continue to work, we can come up with a consensus on this bill. 
But I do have some serious concerns about the draft right now. 
Thank you.
    Mr. Shimkus. I thank my colleague. The Chair now recognizes 
the gentleman from Mississippi, Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and we appreciate each witness being here 
today to share your views and insight. I think that will be 
very helpful as we go forward.
    Mr. Shimkus. Would the gentleman yield for a second?
    Mr. Harper. Yes.
    Mr. Shimkus. Just a reminder because she is not up on the 
screen, but we also have Jennifer Thomas from the Alliance for 
Automobile Manufacturers. She is in Brussels. So there she is.
    Mr. Harper. Great.
    Mr. Shimkus. So if there is--sometimes people come and go, 
and they forget that she is here and we appreciate her time.
    Mr. Harper. Great. Thank you. Mr. Harris, if I may ask you 
a couple of questions, first, can you talk for a moment about 
why it makes more sense to keep the focus on chemicals instead 
of mixtures?
    Mr. Harris. Most of the mixtures that would--and there are 
millions of mixtures, understand. There are not just a few 
thousand. There are millions of mixtures. If the chemicals that 
go into those, unless they in some way through reaction or some 
other catalyst change the makeup of that chemical, if the 
chemical has been evaluated, it seems duplicative to me to do 
it again, extra effort on the part of the industry but extra 
effort on the part of the EPA as well and integrate information 
that I see as having little use.
    Mr. Harper. Mr. Harris, the small processor is not defined 
in TSCA. How do you define small business in your sector?
    Mr. Harris. Employees of 100 or less is the typical 
definition under the bill. Otherwise, anyone with sales over $4 
million or sales of 100,000 pounds would not be included as a 
small processor.
    Mr. Harper. You state in your written testimony that 
protection of proprietary information is the foundation of 
innovation in our economy and that it is important to your 
members and your customers. In your opinion, are the 
confidential business information provisions in CICA an 
improvement over existing TSCA and if so, why?
    Mr. Harris. Yes, I believe so. I think it gives industry 
the opportunity to keep information confidential that they need 
to for competitive and innovative reasons, but I think it also 
provides an opportunity for those emergency responders and 
those in healthcare to be able to get the information they need 
if necessary in event of an accident. I think it is an 
improvement over current TSCA.
    Mr. Harper. You make an important point in your written 
testimony about the economic margins your industry operates on 
and while you believe that your members should be subject to 
regulation that it is important to be mindful of the costs 
associated with regulatory burdens. Along those lines, isn't 
cost-benefit analysis an essential part of most government 
regulation?
    Mr. Harris. I certainly think it should be. In our 
industry, we are regulated by just about every agency that you 
could name here in Washington, and I think it is essential that 
when a regulation is created, you need to understand what it is 
going to cost industry to comply to make sure that it makes any 
sense, that there is a benefit not only to the industry but 
certainly to the general public.
    Mr. Harper. OK, and if there wasn't such a cost-benefit 
requirement, couldn't the government impose regulations whose 
costs far exceed the benefits they are purported to provide?
    Mr. Harris. Absolutely. I think that happens today.
    Mr. Harper. Specifically you mention reporting burdens that 
may be especially burdensome for your members, and you 
explained that you want to avoid duplicate reporting burdens. 
How could EPA be sure it is getting the information it needs 
and not more and not duplicate information?
    Mr. Harris. Well, I think that we are, speaking as a 
distributor, we are a middleman. We do not manufacture 
products. The chemicals that we distribute are manufactured by 
others. That information the EPA is getting from those 
manufacturers. We sell products to manufacturers, companies 
that are making a variety of products. They understand the 
exposure. They understand the risk better than we would. If 
that information can't be obtained anywhere else, we are 
certainly willing to do what we can to provide it. But it seems 
duplicative to me to provide information that someone else has 
already provided and a burden on both industry and the 
government.
    Mr. Harper. Thank you, Mr. Harris. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from Colorado, Ms. DeGette, for 5 
minutes.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman. 
I just want to reiterate that I am pleased that we are 
continuing to have conversations, and there is some progress 
that is made in this draft bill. But I am concerned like the 
ranking member of the full committee that the discussion draft 
might weaken some aspects of current law. And I want to talk 
about a couple of those issues.
    Right now, TSCA doesn't require new chemicals to be tested 
before they are introduced into commerce, and it places 
significant hurdles on the EPA to require testing of existing 
chemicals. And so as a result of this, 85 percent of pre-
manufacture notices submitted for new chemicals under TSCA are 
accompanied by no toxicity data. This bill, the draft bill, 
doesn't require new chemical applications to be accompanied by 
data, and it would not require testing of all existing 
chemicals. While the draft does extend order authority of the 
EPA for testing, it also puts new limits on the EPA's testing 
authority, allowing testing in only a narrow set of 
circumstances.
    And so I want to start with you, Mr. Belliveau. Are you 
concerned about the limitations the draft would put on the 
EPA's authority to require testing?
    Mr. Belliveau. Yes, I am very concerned for the reasons 
that you stated and in addition, the changes in the draft to 
current law would substantially shrink the universe of the 
number of chemicals that would be candidates for testing. 
Currently under existing law, any chemical could be subject to 
a testing requirement. Under the draft, only those handful of 
chemicals that were going through a safety determination or 
determination for a new chemical could be tested. That really 
shrinks the universe and the bar is raised, a higher--rather 
than a chemical simply that may present an unreasonable risk 
triggering testing, now EPA has to show that the chemical will 
result or will likely result in an unreasonable risk before 
testing can be required.
    Ms. DeGette. Right, and that sort of hints at what my next 
question is which is that EPA is not provided with the 
requirement of--I am sorry, with the authority to require the 
testing of chemicals before putting them into the high-priority 
or low-priority categories. The chemicals that were put into 
the low-priority category would be exempt from all regulation 
at both the Federal and State levels. So that would have huge 
consequences.
    So I want to follow up and ask you are there any 
requirements in the draft to ensure that the EPA has adequate 
information about a chemical's risk before putting it into that 
category?
    Mr. Belliveau. No, because their authority has been 
narrowed as we just discussed.
    Ms. DeGette. Right.
    Mr. Belliveau. And there is no threshold requirement that 
there be robust data demonstrating that the chemical has no 
intrinsic hazard in order to justify being designated a low 
priority. The result would be thousands of chemicals that are 
shielded from Federal and State----
    Ms. DeGette. OK. Do you have----
    Mr. Belliveau [continuing]. Scrutiny.
    Ms. DeGette [continuing]. Some ideas of how we can fix this 
part of the draft? You don't----
    Mr. Belliveau. Yes.
    Ms. DeGette [continuing]. Need to tell me right now, but if 
you don't mind supplementing your testimony by providing a 
written summary of how you would fix this as we move forward in 
the committee?
    Mr. Belliveau. I would be happy to do that.
    Ms. DeGette. That would be great. Thank you. Mr. Chairman, 
I would ask unanimous consent that he be allowed to supplement 
with that information.
    Mr. Shimkus. Without objection, so ordered.
    Ms. DeGette. Thank you. I want to turn to you, Mr. Harris, 
briefly. Why do you think that the bill should be changed to 
give the EPA the authority to require from downstream 
formulators, that are from downstream formulators? Sorry. That 
was written in my handwriting which I couldn't read.
    Mr. Harris. No problem. I have the same issue. Again, I 
will repeat that, you know, we are a middleman. We are a 
distributor. We typically know but under Responsible 
Distribution and the product distributorship requirements that 
we have under Responsible Distribution, we know what our 
customers are using their products for.
    Ms. DeGette. Right.
    Mr. Harris. We do not always know exactly how they are 
using them. Thus it would be difficult for us as a distributor 
to determine what the exposures would be in their factors and 
in their plants. In fact, many of our customers would not want 
us in their factories, their plants. They have confidential 
things that they do there. They don't want us to know how they 
are formulating their paint or their ink or their cosmetics. So 
I think it would be duplicative for us to try to do something 
and provide information that in fact probably wouldn't say much 
because we don't know what is going on every day in a 
downstream processor's facility.
    Ms. DeGette. And so really, if those folks gave the data to 
the EPA, then the EPA could use that to inform the 
prioritization, right?
    Mr. Harris. Absolutely.
    Ms. DeGette. Dr. Duran, you are nodding your head yes, too, 
is that correct?
    Ms. Duran. Yes. I mean, understanding where the exposure 
is, that is a role we play as downstream users of chemicals 
and----
    Ms. DeGette. And in fact, high exposure is a valid reason 
to designate a chemical as a high priority, isn't it, Dr. 
Duran?
    Ms. Duran. In conjunction with inherent hazard, of course.
    Ms. DeGette. Right.
    Ms. Duran. Yes.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman.
    Mr. Shimkus. I thank my colleague. The Chair now recognizes 
the gentleman from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for getting this 
train moving down the tracks. I am just afraid that it will get 
going too fast. It is really possible for the House to pass 
something that wouldn't have a chance in the Senate. So let us 
work together on that.
    And I understand the industry's need for TSCA's reform to 
establish a clear and consistent set of standards that would 
not impact the industry's competitiveness clear enough. 
However, there is a growing public concern and awareness of 
unapproved exposure to chemicals that may cause cancer or cause 
harm to other parts of our health. And a good reform package 
would give the EPA the tools and the resources to carry out 
regulations of public disclosures of chemicals to better ensure 
public safety. If this committee produces legislation that 
curtails the EPA from protecting the public safety from a 
chemical exposure, then this legislation would be a failure and 
ultimately counterproductive for the industry. So again, I urge 
we work together. There is competitive interest, of course, but 
in the end, I think we can find something that would be 
beneficial.
    I do have some questions. I am not just going to preach 
here. The CICA continues to determine on a cost-benefit 
analysis rather than a risk-based standard, and yet every 
member of the panel agreed that the law should be risk-based. 
So I suspect we should move more in that direction in our 
legislative effort with the concurrence of the panel. The CICA 
fails to create protections from aggregate exposures to 
chemicals which is something that concerns me personally. Mr. 
Belliveau, would you comment on that?
    Mr. Belliveau. Yes, we need to consider real-world 
conditions. The average person is exposed to a chemical from 
multiple sources. Naturally EPA should aggregate the 
information on those multiple exposures when determining the 
safety of chemicals and a more explicit requirement to assess 
aggregate exposure would certainly be appropriate.
    Mr. McNerney. Should the EPA generate risk data on 
chemicals?
    Mr. Belliveau. The EPA needs greater authority to require 
manufacturers and processes to test chemicals to provide data 
and information on----
    Mr. McNerney. So it should----
    Mr. Belliveau [continuing]. The hazards. Yes.
    Mr. McNerney [continuing]. Have a risk-based table or 
database of chemicals of risks?
    Mr. Belliveau. If you are asking do we need a strictly 
risk-based system, yes, we do, and the draft does not provide 
that.
    Mr. McNerney. So that was my next question.
    Mr. Belliveau. OK.
    Mr. McNerney. Does the CICA do that?
    Mr. Belliveau. No.
    Mr. McNerney. Does it give the EPA authority to do that?
    Mr. Belliveau. No, it mixes costs too up front in the 
process which prohibited EPA from banning asbestos. There needs 
to be--and I think stakeholders have agreed on this privately 
that there needs to be a strictly health-based determination as 
to whether a chemical is safe for the uses, all the uses that 
are out there. And then if a chemical fails to meet that safety 
standard, then we can look at solutions next. And then 
naturally, as a common-sense matter in looking at solutions, 
you look at what works, how affordable it is, and other 
considerations. But to consider those things up front chills a 
determination of safety.
    Mr. McNerney. I am not sure if anyone on the panel would 
like to answer this. It seems that the CICA creates new 
opportunities for litigation before chemicals can be regulated. 
Would anyone care to take that?
    Mr. Belliveau. If I may, in several places the draft adds 
new burdens of proof imposed on the Environmental Protection 
Agency. Arguably that opens the door to industry lawsuits that 
allege that the EPA has not met those burdens. There needs to 
be more of a burden on the industry to make certain 
demonstrations and less burden on EPA.
    Mr. McNerney. Lastly, the TSCA reform proposals included in 
this draft would create new duties and new requirements for the 
agency, necessitating additional funds. Yet, this draft 
provides no additional resources. For each to the panel, a yes 
or a no, please. Do you support the collection of reasonable 
user fees to ensure that the EPA has the resources to carry out 
its functions? Dr. Duran?
    Ms. Duran. I would say reasonable is key. Most likely, yes.
    Ms. Deford. Reasonable in making sure that they come back 
to TSCA to EPA, that office to----
    Mr. McNerney. Very good.
    Ms. Deford [continuing]. Have those resources.
    Mr. Cik. Absolutely, of course.
    Mr. McNerney. OK.
    Mr. Cik. We submitted some data with our package that 
demonstrates that most small businesses in the country support 
very strong measures to control toxic chemicals. This position 
is not a minority position. This is a majority position.
    Mr. McNerney. OK. Mr. Harris?
    Mr. Harris. Yes, I would agree also if it is reasonable, if 
the fees are reasonable, and if the funds are used for the 
purpose intended.
    Mr. McNerney. OK.
    Mr. Belliveau. Yes.
    Mr. McNerney. Well, I want to underscore this before I 
yield. No matter what we put in the bill, if the EPA doesn't 
have the resources to carry out its functions, it won't be a 
functional law. I yield back.
    Mr. Shimkus. The gentleman yields back. At this time the 
Chair now recognizes the gentlelady from California, Ms. Capps, 
for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, for holding the 
hearing, and thank you to our witnesses for your testimony. And 
if it is any comfort to you, I think I am the last member to 
ask questions.
    You know, under current law, TSCA uses a ``unreasonable 
risk'' standard to evaluate the safety of a chemical. This is 
understood to be a cost-benefit standard. In effect, a cost-
benefit approach requires the Agency to balance the economic 
value of a chemical against the adverse health impacts, whether 
they be cancer, autism or any of the other serious threats.
    Besides posing a serious ethical problem, this approach has 
also proven, and I think you might agree, to be unworkable. And 
that is what the subcommittee has repeatedly received 
testimony, that TSCA's safety standard is failing to protect 
the general public and vulnerable populations.
    Since 2009, there has been widespread agreement that this 
cost-benefit standard needs to be abandoned. We have heard from 
many stakeholders, including EPA, the American Chemistry 
Council and even the oil refineries, everybody seems to be on 
the same page on this one. They have all stated that costs 
should not be part of safety determinations under TSCA.
    Despite the broad consensus on this matter, the discussion 
draft we have before us maintains the status quo on the safety 
standard. It makes no changes to the language of unreasonable 
risk or the consideration of cost during EPA's assessment of a 
chemical's safety. I think that is a disappointment. I am also 
very concerned that the safety standard in the draft will fail 
to protect the vulnerable populations. That is what I want to 
talk about for a minute.
    Vulnerable populations include children, infants, the 
elderly, the disabled workers and those living near chemical 
facilities. The National Academy of Science in their 2009 
report, Science and Decisions, recommended that all vulnerable 
populations should receive special attention in all stages of 
the risk-assessment process.
    Mr. Belliveau, do you believe the draft as written would 
adequately protect vulnerable populations from dangerous 
chemicals?
    Mr. Belliveau. No, I don't. It really needs to be changed 
so that a chemical has to be found to be safe for the 
vulnerable populations explicitly.
    Mrs. Capps. I was going to ask you what changes you would 
recommend. Do you want to be more specific than that?
    Mr. Belliveau. Sure. I mean, to be fair, the drafters 
include a definition, potentially exposed population, that 
addresses some of who the vulnerable population is. It is a 
definition. It says that some exposures need to be considered, 
but you need to finish the job unless you require that you 
actually apply a health-based standard to the protection of 
vulnerable populations. It is an option. It is not a mandate. 
And we need to be concerned about those who are most 
vulnerable.
    Mrs. Capps. And you may have already answered this, too, 
but just for the record, should the placement of chemicals--
well, first of all, should decisions then on new chemicals 
protect vulnerable populations?
    Mr. Belliveau. Yes, absolutely.
    Mrs. Capps. Yes? And should the placement of chemicals into 
either low- or high-priority categories protect vulnerable 
populations?
    Mr. Belliveau. Especially for the low-priority category. We 
need to ensure that there is adequate data to determine whether 
vulnerable populations may be at risk. The danger that is 
invited by the current draft is that literally thousands of 
chemicals will be set aside as low priority with poorly 
understood hazards. That would not provide the protection that 
we are seeking for vulnerable populations.
    Mrs. Capps. Thank you. Mr. Chairman, there is about a 
minute and a half left or a quarter left. This is really what I 
wanted to drill in on here in my question time. So would any of 
the other of you like to respond to this matter of protecting 
our vulnerable populations?
    Ms. Deford. Yes----
    Mr. Shimkus. Your mike is not on. I am sorry.
    Ms. Deford. Sorry. What I was saying is we see the 
discussion draft as actually is including--there is a 
definition for potentially exposed populations. So we do see 
the discussion draft taking account----
    Mrs. Capps. Adequately?
    Ms. Deford [continuing]. Of that.
    Mrs. Capps. Adequately?
    Ms. Deford. And I mean, we believe it is critical for that 
protection to be in place, both for new chemicals and existing 
chemicals.
    Mrs. Capps. Anything else?
    Mr. Cik. I will add something. The low-priority issue could 
be a trap for products that serve at-risk populations like 
babies and children, pregnant women, the at-risk population. 
These chemicals can be shielded from further review. I mean, 
that could be a serious problem. And then you make it worse by 
shielding these chemicals from States to review them. It is a 
serious problem. We can't allow that.
    Mrs. Capps. OK.
    Ms. Deford. Maybe one point I would make on low priority 
is, I mean, if the Agency doesn't have sufficient information 
in order to make a determination, they can actually identify 
such as a high priority and then go ahead and collect 
additional information. So you know, the question, the issue 
around insufficient information is the Agency can realize that 
and make a determination about need for both exposure and 
additional hazard information.
    Mrs. Capps. Thank you. I have overstayed my time but I just 
at least want to really acknowledge the chairman for your 
pledge to work with members on this side of the aisle in a real 
bipartisan way to improve this draft. I think that there is 
agreement that it may be a starting point but it needs a heck 
of a lot of work before it sees its final form. At least that 
is how I feel. Thank you very much.
    Mr. Shimkus. I would thank my colleague and friend from 
California. I would just, on a side note, I would say TSCA 
currently has no category for vulnerable populations.
    Mrs. Capps. Right.
    Mr. Shimkus. Period. Nothing.
    Mrs. Capps. Yes.
    Mr. Shimkus. We at least start addressing it. And I think 
that is a step in the right direction showing some movement.
    Mrs. Capps. One step.
    Mr. Shimkus. That is better than no step. But I do want to 
thank--I want to make sure we thank Ms. Thomas for being with 
us in Brussels. She is going to be allowed to go to bed. And we 
also want to thank the first panel for your diligence. Members 
were very active. This is a very important issue. We do 
appreciate those offers of assistance. We want to get to 
obviously a compromise that can move in a bipartisan manner. 
That is the only one that will really get appropriately on the 
Senate side. As was stated, we could move a Republican bill 
adequately and through the house, but the question is, to what 
end? So we are all going to have to move somewhere, and I hope 
we all move together.
    With that, I want to dismiss the first panel and ask the 
second panel to come join us.
    I am going to get started and welcome the second panel. I 
will do the same as I did the first one. I will kind of 
announce you all right up front, and then we will just go with 
the 5 minutes. You all sat through the last panel. I think 
there will be a lot of good questions. I may not go as long as 
the first, but we are happy to have you here.
    Joining us will be Mr. Mark Duvall who is a Principal at 
Beveridge & Diamond. Next to him is Dr. Bosley?
    Ms. Bosley. Bosley.
    Mr. Shimkus. Bosley. Thank you. President of Boron 
Specialties on behalf of the Society of Chemical Manufacturers 
and Affiliates. Mr. James Stem is National Legislative Director 
of the Transportation Division of the Sheet Metal, Air, Rail 
and Transportation Union. Dr. Philip Landrigan, Professor of 
Pediatrics, Director of Children's Environmental Healthcare 
Center, Ichann School of Medicine at Mt. Sinai. Welcome, sir. 
And Ms. Anna Fendley with the United Steel Workers.
    With that, Mr. Duvall, you are recognized for 5 minutes.

 STATEMENTS OF MARK N. DUVALL, PRINCIPAL, BEVERIDGE & DIAMOND, 
  P.C.; BETH D. BOSLEY, PRESIDENT, BORON SPECIALTIES, LLC, ON 
BEHALF OF THE SOCIETY OF CHEMICAL MANUFACTURERS AND AFFILIATES; 
      JAMES A. STEM, JR., NATIONAL LEGISLATIVE DIRECTOR, 
      TRANSPORTATION DIVISION, SHEET METAL, AIR, RAIL AND 
  TRANSPORTATION UNION; PHILIP J. LANDRIGAN, DEAN FOR GLOBAL 
  HEALTH, ETHEL H. WISE PROFESSOR AND CHAIRMAN, DEPARTMENT OF 
PREVENTIVE MEDICINE, PROFESSOR OF PEDIATRICS, ICHANN SCHOOL OF 
 MEDICINE AT MOUNT SINAI; AND ANNA FENDLEY, UNITED STEELWORKERS

                  STATEMENT OF MARK N. DUVALL

    Mr. Duvall. Chairman Shimkus and Ranking Member Tonko, 
thank you for inviting me to testify. My name is Mark Duvall. I 
am a principal at the law firm of Beveridge & Diamond. Although 
I represent a variety of clients on TSCA issues, I am appearing 
here today solely in my personal capacity. The views I express 
today are my own, and I am not representing my law firm or any 
client of my law firm.
    My comments focus on the core provisions of the discussion 
draft which would amend Sections 4, 5 and 6 of TSCA relating to 
testing, new chemicals and existing chemicals. In my view, 
these provisions would strengthen TSCA in important ways.
    Starting with Section 4, the draft would delete today's 
requirement that EPA establish both that testing is needed and 
that a chemical substance may present an unreasonable risk or 
other finding. It would only require EPA to conclude that 
testing is needed. Where appropriate, EPA would be able to 
impose testing requirements by order rather than by rule. This 
should streamline its ability to require testing.
    The draft would also facilitate transition to the more 
sustainable toxicology testing of the future. It would 
encourage the use of innovative technologies while leaving EPA 
with the discretion to require animal testing where 
alternatives are not yet available or sufficiently reliable.
    With respect to Section 5 of TSCA, for the first time EPA 
would have to decide whether a new chemical substance would or 
would not be likely to result in an unreasonable risk of harm 
under the intended conditions of use. The draft bill would 
authorize EPA to require testing to develop the information it 
needs in order to make that determination if the information 
was not provided by the submitter.
    The draft bill would also clarify and strengthen EPA's 
ability where appropriate to restrict new chemical substances 
as they enter the market.
    Turning now to Section 6, one of the most important changes 
to TSCA would be the prioritization provision. Current law has 
no driver that requires EPA to prioritize chemical substances 
for review and then review them systematically. As a result, 
EPA has faced challenges in obtaining necessary funding from 
Congress or clearances from OMB. The draft bill would provide 
that driver.
    The prioritization provision would direct EPA to establish 
a risk-based process for designating chemical substances as 
either high or a low priority for a safety determination. Those 
designated as high would proceed to a safety determination. 
Those designated as low would not. At any time, EPA could 
revisit a designation and change it if the available 
information supported a change in EPA's discretion.
    Safety determinations are the second step in addressing 
chemical safety systematically. EPA would be required to make 
safety determinations for high priority substances. The safety 
determination would conclude either that a chemical substance 
will or that it will not result in an unreasonable risk of harm 
to human health or the environment under the intended 
conditions of use. EPA could require testing if needed in order 
to make a safety determination.
    This unreasonable risk standard which has been discussed 
already this morning would be very different from the similarly 
worded standard of current TSCA and certain other statutes and 
would have a different effect. Unlike those other statutes, the 
draft would separate out the determination of risk which is 
primarily a scientific conclusion from decisions about risk 
management. The safety determination itself would be based on 
scientific factors, considerations of risk and so on. It would 
be risk-based. It would consider information on potentially 
exposed subpopulations that EPA would take into account in 
making a determination of unreasonable risk. But there is no 
provision in the bill for the weighing of costs and benefits in 
making a safety determination. If that is not clear, then 
legislative history or additional drafting should make it 
clear.
    The bill's risk management provision would delete the least 
burdensome alternative requirement of TSCA and delete many of 
the procedural requirements that EPA has found to make rule 
making difficult. Instead, it would require EPA to make certain 
findings before imposing risk management controls. For example, 
EPA would have to determine that the controls will result in 
net benefits and would be cost effective. These requirements 
have been in place for over 20 years because they were part of 
the executive order issued by President Clinton and reaffirmed 
by President Obama. EPA has not found these executive orders to 
be obstructing it from completing its work. And where risk 
management measures would amount to a ban, EPA would have to 
ensure that feasible alternatives are available that would 
reduce the risk. This provision would address the concern 
reflected in California's green chemistry regulations about 
regrettable substitution.
    In conclusion, the draft bill would strengthen TSCA's core 
provisions. It would delete requirements that have hampered 
EPA's ability to regulate chemical risks. It would provide EPA 
with new flexibility in exercising its authority, and it would 
require EPA to act in ways that promote good governmental 
decision-making.
    Thank you for considering this testimony.
    [The prepared statement of Mr. Duvall follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shimkus. Thank you. The Chair now recognizes Dr. Beth 
Bosley. You are recognized for 5 minutes.

                  STATEMENT OF BETH D. BOSLEY

    Ms. Bosley. Thanks very much, Chairman Shimkus, Ranking 
Member Tonko and other members of the subcommittee. My company, 
Boron Specialties, is a specialty chemical manufacturer and a 
woman-owned small business. We are located in Pittsburgh, 
Pennsylvania. We are also members of the Society of Chemical 
Manufacturers and Affiliates, known as SOCMA.
    As an entrepreneur and a business owner, I offer a unique 
perspective that I hope you will find helpful as you consider 
this draft legislation which is a clear improvement over the 
status quo. I would like to discuss some important areas of the 
draft.
    First, a robust new chemicals program is essential to 
America's ability to innovate and to create jobs. I cannot 
overstress the importance of market access to start-ups and 
small businesses. In general, the new chemicals provision in 
the draft bill preserves the delicate balance in existing law 
between the opportunity to innovate and protecting human health 
and the environment. The draft retains current statutory 
exemptions and the authorization for other exemptions such as 
for research and development.
    As a clarification, when I speak of exemptions, I do not 
mean exempt from TSCA or any other compliance obligations. All 
I am talking about is exempt from premanufacture notification 
requirements or that they are eligible for expedited review so 
long as they meet certain criteria.
    Chemicals making use of these exemptions are actually 
inherently restricted since they are bound by rigorous 
criteria. The draft also maintains the 90-day review period for 
PMNs. EPA currently completes review of many new chemicals in 
far less time than 90 days while still being protective. So 
this is reasonable. The draft would require EPA to determine 
during that review period whether a new chemical is likely to 
meet or not likely to meet a safety standard. This is a 
significant step forward.
    As the subcommittee considers the bill further, I offer 
some suggestions regarding the treatment in Section 5. Current 
law authorizes EPA to extend the 90-day review period by rule 
which is usually procedurally too demanding. So EPA uses 15-day 
extensions with consent of the submitter. I would urge this 
aspect of the current bill be adopted rather than allowing an 
automatic 90-day extension.
    I believe some drafting corrections might be warranted also 
to clarify EPA's ability to use significant new-use rules that 
are applicable to everyone and to authorize commencement of 
manufacture upon the establishment of Section 6 restrictions. 
We would be happy to discuss these with subcommittee staff off-
line.
    The draft bill also strengthens Section 14, confidential 
business information provision, and represents a balanced 
approach to increased transparency while preserving trade 
secret protection. The bill imposes reasonable limitations on 
CBI. Companies would have to determine how long they believe 
their CBI protection is necessary, and they would have to 
resubstantiate over time. This fixes one of the core problems 
under the current law, the open-ended protection of CBI.
    The draft would break the inventory of existing chemicals 
into active and inactive lists. This will help EPA focus its 
resources on prioritizing a much smaller list of active 
chemicals which will expedite review.
    As I have mentioned in prior testimony, the bill should 
also expand TSCA Section 8(e) to authorize submission of non-
adverse data and to require EPA to take this data into account. 
Presently Section (e) is bias toward adverse data.
    I am pleased to see that the EPA would be able to obtain 
information from downstream processors who are in a much better 
position to report on market applications and exposure patterns 
for the chemicals they use. I am somewhat concerned that the 
bill does not require some degree of processor reporting, 
however.
    After prioritization, should EPA determine that more data 
is needed to affirm safety, it would be given enhanced 
mechanisms for this data collection.
    TSCA Section 4 would also be strengthened by expanding EPA 
authority to request data either by rule, by consent agreement 
or by order, and it is this order authority that will speed 
action. As a caveat, however, before ordering testing, EPA 
should first consider all the available information that it 
has. It should have sound scientific and risk basis for the 
request, and testing should be tiered.
    The risk management provision under the current statute has 
received criticism for the unreasonable risk standard being too 
cumbersome for EPA to implement. It requires EPA to determine 
the least burdensome regulatory measures for chemicals that 
present a risk.
    In the draft, cost and benefits are separated from what is 
now a purely health- and environment-based safety standard, and 
the least burdensome requirement is removed. EPA would instead 
have to look at risk management measures that are proportional 
to the risk that provide net benefits and are cost effective. 
These are all positive steps.
    Perhaps the bill's greatest improvement over the Senate 
bill is its clarification that low-priority determinations 
would be judicially reviewable. This solves the problem of 
State requirements being preempted by actions that are not 
subject to judicial review.
    I have covered the major ways in which this bill is an 
improvement over the status quo. The bill provides a vehicle 
for balanced TSCA reform and discussion crucial, unaddressed 
issues. I hope this hearing marks the first step in a 
constructive bipartisan process to facilitate this advancement. 
Thanks very much for the opportunity to share my perspective.

    [The prepared statement of Ms. Bosley follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. Thank you. The Chair now recognizes Mr. James 
Stem. Sir, you are recognized for 5 minutes.

                STATEMENT OF JAMES A. STEM, JR.

    Mr. Stem. Mr. Chairman and Ranking Member Tonko, thank you 
for the opportunity to offer our input. My name is James Stem, 
and I serve here in Washington as the National Legislative 
Director for our largest railroad union, formerly known as the 
United Transportation Union. I am speaking to you today on 
behalf of the tens of thousands of men and women that are 
working today, operating our railroad system and who as a part 
of their daily responsibilities of safely moving the thousands 
of tons of chemical products around our country that have been 
requested by local businesses and local government bodies 
throughout.
    I wish to commend the subcommittee for returning to regular 
order and for its work on this draft. All of us in this room 
are hoping to reform TSCA during 2014.
    There were five unions that have been participating and 
expressing our optimism of the bipartisan nature of the Senate 
deliberations on this subject, and we will continue to work 
with the House committee in order to achieve that bipartisan 
result here. We congratulate you for that.
    Modernizing TSCA takes on a new urgency as our American 
chemical industry prepares to make major investments in U.S. 
production facilities in the wake of the natural gas boom. The 
industry has announced over $100 billion in planned U.S. 
investments that will not only use domestic natural gas to make 
products but also put our American people back to work. The 
U.S. chemical industry will generate tens of thousands of new 
American jobs in manufacturing, construction, energy 
infrastructure, technology, transportation and additional 
research and development. The industry already provides 
800,000-plus well-paid U.S. jobs and indirectly supports 
millions more. The substantial tonnage of chemical shipments on 
our Nation's freight railroads helps to support good railroad 
jobs. Exporting thousands of tons of chemical products 
manufactured in this country by American workers is not a 
dream. That is the reality that is on the on the table today.
    Transporting the needed chemical products that our U.S. 
manufacturing sector requires from the chemical production 
facilities to the final destination by rail is the safest form 
of transportation. Railroads have the capacity and the 
experienced workforce to move these products safely and 
efficiently without putting thousands of tanker trucks on our 
overburdened highways.
    We support a reform that will achieve the following goals: 
number one, strengthen our chemical safety law to protect human 
health and the environment. Two, restore public confidence 
about the safety of chemicals in commerce, and three, help the 
U.S. chemical industry innovate and grow, so it can provide 
good jobs. Directly and indirectly, TSCA impacts chemical 
safety, our economy, and the health and well-being of many 
workers and their families.
    Americans in every State need to be confident in their 
homes, workplaces and communities that our Nation's chemical 
regulations are robust and working to protect them.
    This draft will fix significant problems that have been 
encountered and identified with TSCA. For the first time, EPA 
will be required to systematically evaluate all chemicals in 
commerce, including TSCA's grandfathered chemicals, and label 
them as either high- or low-priority based on potential health 
and environmental risks. Chemicals requiring the most immediate 
attention from regulators should be successfully identified for 
action by this process. This ranking system must be carefully 
crafted as the proposals move forward so that confidence in its 
dependability is high.
    High-priority chemicals will require EPA to perform a 
safety-based risk assessment. EPA must determine whether a 
high-priority substance will result in unreasonable risk of 
harm to human health or the environment under its intended 
condition of use. Low-priority chemicals can be reclassified as 
high priority when necessary.
    EPA will be able to demand more health and safety 
information from chemical producers. EPA will also delineate 
which chemicals are in active use and which are not, ending 
confusion about the actual number in use.
    These improvements will make TSCA more effective. However, 
we recognize that the drafting process must address additional 
significant issues.
    All of us here today are aware of the State preemption 
controversy with regard to reforming TSCA. As a practical 
matter, we agree that effective national regulation of 
chemicals in commerce is generally preferable to State-by-State 
regulation. At the same time, States must be able to 
successfully address local issues and concerns. A strong, 
uniform, robust and workable national law is preferable to 50 
States regulating independently. Using rigorous scientific 
testing before a chemical is made available in any State is the 
recommendation. The need to improve the protection of 
vulnerable populations provide more definitive timelines for 
action by EPA and finally as a separate but related matter, EPA 
must be given the resources needed to carry out the reform and 
these new responsibilities.
    I thank you for the opportunity to speak.

    [The prepared statement of Mr. Stem follows:]

    [GRAPHIC] [TIFF OMITTED]     

    Mr. Shimkus. I thank you. The Chair now recognizes Dr. 
Philip Landrigan for 5 minutes, sir. Welcome.

                STATEMENT OF PHILIP J. LANDRIGAN

    Mr. Landrigan. Thank you, Mr. Chairman, Ranking Minority 
Member Tonko from----
    Mr. Shimkus. Can you pull that a little bit closer?
    Mr. Landrigan. Yes, sir.
    Mr. Shimkus. Much better. Thank you.
    Mr. Landrigan. I am Philip Landrigan. As you said when you 
introduced me, I am a pediatrician, and I am here today to talk 
about the discussion draft, and I want to really focus on the 
inner section between Chemical Safety Legislation and 
Children's Health because this bill is not merely a chemical 
bill. It is a public health bill, and the public health issues 
in my opinion have to be front and center in the debate.
    So let me start by pointing out to you that rates of a 
whole series of chronic diseases are on the rise in American 
children. Asthma has tripled. Childhood cancer incidence has 
gone up by 40 percent over the past 40 years. Autism now 
affects one child in 88. Attention Deficit Hyperactivity 
Disorder affects about one child in seven according to data 
from the CDC. These chronic diseases of children are highly 
prevalent in today's world. They are on the increase. They 
affect children of every social stratum, children whose parents 
might be of any political persuasion. This really ought to be a 
non-partisan bill because it is about the health of all 
Americans.
    There is a strong body of scientific evidence that toxic 
chemicals have contributed to diseases in children. Going back 
100 years ago, lead was show to cause mental deficiency, 
learning problems, loss of IQ. Seventy-five years ago, 
methylmercury. More recent, clinical and epidemiologic studies 
have linked organophosphate pesticides, arsenic, manganese, 
brominated flame retardants, phthalates, bisphenol A to 
learning disabilities, loss of IQ, problems of behavior in 
children. All of these chemicals that I have listed have been 
studied in investigations supported by the National Institutes 
of Health, published in peer-reviewed journals, reports that 
have withstood extensive scrutiny. And this body of evidence is 
growing by the year.
    Now experience has taught us that when we know the risk 
factors to disease, we can intervene against those risk 
factors. The first great teaching in this regard came from the 
Framingham Heart Study launched in 1948 in Framingham, 
Massachusetts. It was the Framingham Heart Study that taught us 
all about the big risk factors for heart disease: hypertension, 
smoking, cholesterol, diabetes, sedentary lifestyle, obesity. 
And because doctors and nurses and health professionals and 
citizens across America have become aware of these risk 
factors, they have intervened against them, and one of the best 
kept secrets in American medicine is that the death rate from 
heart disease has gone down by 50 percent in this country over 
the past 40 years. Yes, heart disease is still the leading 
killer, but it is half the killer it was.
    The same logic applies to preventing disease and 
dysfunction caused by toxic chemicals. In 1976, based on data 
showing that lead was toxic to children, even at low levels, 
EPA made the courageous decision to remove lead from gasoline. 
What happened was astounding. Blood lead levels plummeted, and 
they have come down 95 percent since 1976 in this country. The 
average IQ of American children has increased by somewhere by 
somewhere two and five points as a consequence of the decline 
in blood lead levels, and because IQ points are worth money, if 
you do the math, we have 4 million babies in this country each 
year, four or five IQ point increase per child, $10,000 per IQ 
point over the lifetime of a child. Researchers at Harvard have 
done that arithmetic and have calculated that the economic 
benefit to the United States of America of the single action of 
getting lead getting lead out of gasoline is $200 billion in 
each crop of babies born since 1980 since blood lead levels 
came down.
    So a big problem today in this country is that our children 
are surrounded by thousands of untested chemicals. How many 
more leads? How many more PCBs? How many more organophosphate 
pesticides are out there today that might be entering the 
bodies of pregnant women, damaging the brains of unborn 
children in the womb, damaging nursing infants, damaging little 
kids? Nobody knows. We don't know because we haven't done the 
testing. We are flying blind.
    A pediatric colleague, Dr. Herbert Needleman of the 
University of Pittsburgh who has done much work on childhood 
lead poisoning, has described the situation as follows. 
Needleman says, ``What we are doing in this country is we are 
conducting a vast toxicological experiment, and we are using 
our children and our children's children as the unwitting, 
unconsenting subjects.'' This is a situation that needs to be 
fixed. It is not sustainable, it is not wise. I would argue 
that it is not even moral to permit exposure of babies in the 
womb, infants and young children and other vulnerable 
populations such as workers and the elderly to untested 
chemicals of unknown hazard.
    So it is clear that we need to move forward to fix TSCA. 
Mr. Chairman, I salute you and your colleagues for having 
started the process. I salute my dear, beloved departed friend, 
Frank Lautenberg, who was a pioneer for so many years, Senator 
Lautenberg of New Jersey, in advancing chemical safety 
legislation. We need to test both existing as well as new 
chemicals for safety.
    And as I close, there are a couple of architectural 
requirements that I think are essential to be included in any 
law that you draft going forward. First and foremost----
    Mr. Shimkus. You are getting close to a minute over so----
    Mr. Landrigan. All right.
    Mr. Shimkus. Is it in your written--you got this finally in 
your written statement also?
    Mr. Landrigan. Yes, sir. Protect kids, set timelines, 
safety standards, and adequately fund EPA. Thank you very much.

    [The prepared statement of Mr. Landrigan follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Shimkus. Thank you. The Chair now recognizes Ms. 
Fendley for 5 minutes.

                   STATEMENT OF ANNA FENDLEY

    Ms. Fendley. Great. Chairman Shimkus, Ranking Member Tonko 
and members of the committee, thank you for the opportunity to 
testify. I am here on behalf of the United Steelworkers. We are 
the largest industrial union in North America and represent the 
majority of unionized chemical workers.
    As witnesses in this and past hearings have stated, TSCA is 
woefully out of date and ineffective. Governments around the 
world have enacted chemical laws that are more protective than 
TSCA. Members of our union rely on the jobs in the chemical 
industry, and we support reform because know that it will make 
American manufacturing more competitive. However, while 
industry competitiveness and consumer confidence are important 
considerations for reform, protecting public health must be the 
primary goal.
    We appreciate that this subcommittee has held so many 
hearings on TSCA reform. However, we are disappointed in the 
CICA. This draft would merely amend, not reform, TSCA and would 
result in a less protective, less functional Federal system for 
assessing and restricting industrial chemicals. The remainder 
of this testimony will highlight some of the shortcomings.
    First, the safety standard. One often-cited example of the 
ineffectiveness of the law is EPA's attempted ban of asbestos 
using the unreasonable risk safety standard and the least 
burdensome requirement for restrictions. CICA retains the 
highly problematic safety standard by neglecting to include a 
definition that specifies health-only considerations. And 
although the draft does not retain the language of the least 
burdensome requirement, it functionally recreates the 
requirement in Section 6(f)(4). These provisions place an 
impossibly high burden on EPA and do not fix the problems in 
existing TSCA that have prevented the Agency from acting on 
chemicals.
    Second, prioritization. The scheme laid out in Section 6(a) 
of the draft would result in chemicals falling through the 
cracks due to considerations of cost versus benefits and 
chemicals being prioritized without adequate information. 
Specifically, a chemical must be listed as high priority if it 
has the potential for high hazard and high exposure, but it 
only may be high priority if it is either highly hazardous or 
there are high exposures. And a low-priority chemical will not 
be further evaluated or have a safety determination even though 
EPA may not have sufficient information for an informed 
determination of the chemical's safety.
    Third, new chemicals. The draft would weaken existing 
provisions for new chemicals. Real reform would prove safety 
before market access. But Section 5 of the draft makes it 
nearly impossible for EPA to get safety information for new 
chemicals, and the Agency must make a safety determination 
using the unreasonable risk standard within 90 days or the 
chemical can go on the market and States are preempted from 
acting.
    The draft also eliminates Section 5(e) from existing TSCA 
which includes worker protections and limits environmental 
releases.
    Fourth, vulnerable populations. As has been discussed 
already, the draft does not adequately protect these groups. In 
fact, there is only one mention of them aside from the 
definition, and that clause requires EPA to analyze the 
exposures of vulnerable populations that are significant to the 
risk of harm. There is no requirement to protect or consider 
them during prioritization.
    Fifth, confidential business information or CBI. Provisions 
in TSCA that protect CBI are important to competition and 
innovation, but they also have the potential for abuse. The 
draft expands the information that can be claimed as CBI and 
has a problematic clause that grandfathers previous claims. 
Real reform would make more, not less, information about the 
safety and use of chemicals available.
    Finally, deadlines and resources. Ultimately TSCA reform 
will never work if the Agency is not provided with clear, 
enforceable deadlines and adequate resources to move the 
program forward. The draft does not incorporate either of 
those. Even those stakeholders have underscored their 
importance. My written testimony also details the draft's 
problems related to testing authority and overreaching 
preemption.
    In closing, the USW strongly supports working on TSCA 
reform during the 113th Congress with the goal of developing 
meaningful legislation that qualifies as actual reform. 
However, this draft would set us back from the status quo and 
from other parts of the world. TSCA reform must give EPA the 
necessary authority and resources to get the information the 
Agency needs, make safety assessments and determinations and 
restrict the use of chemicals that do not meet a health-only 
safety standard. We look forward to working with the 
subcommittee and any other stakeholders in developing 
legislation that would protect worker and public health. Thank 
you.
    [The prepared statement of Ms. Fendley follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. Thank you very much, and I know the folks out 
there observed me--this is causing me to drink. So I have got 
my chemically induced Diet Coke and my chemically induced 
Hershey candy bar which does bring up a point. One part of the 
problem with TSCA is that TSCA makes the assumption every 
chemical is toxic. And that whole prioritization issue is part 
of that debate. Not every chemical is toxic. Otherwise, we 
would have huge problems.
    So I just thought of that. I recognize myself for 5 minutes 
for my first round or the opening round of questions to this 
panel. Mr. Landrigan, I just want to ask, you said in the first 
panel current TSCA does not mention vulnerable populations. Is 
that correct?
    Mr. Landrigan. That was said at the first panel, yes.
    Mr. Shimkus. Yes.
    Mr. Landrigan. I believe that----
    Mr. Shimkus. And you understand that? I mean, there is no 
mention. Current law does nothing to that vulnerable population 
that you are concerned about?
    Mr. Landrigan. That is right.
    Mr. Shimkus. OK. And at least we are starting the debate on 
how to address vulnerable populations. Would you agree with 
that?
    Mr. Landrigan. That is correct. Yes, sir.
    Mr. Shimkus. Thank you. Mr. Duvall and Dr. Bosley, I am 
giving you a chance to respond to some of the statements made 
in either this panel or the other panel to maybe something that 
caught you that it is, you know, this is very intense and there 
are opinions on both sides. So the opportunity to respond to 
something you may have heard and would like to at least give 
your side of that story.
    Mr. Duvall. Thank you. There are several points I would 
like to make. One of the first is a widespread perception that 
the unreasonable risk standard of the draft bill would be no 
different from the unreasonable risk standard of current TSCA. 
My understanding from reading the bill is that that is not what 
is intended and that would not be the effect and that the key 
provision on unreasonable risk is the safety determination 
provision which identifies the basis on which a safety 
determination would be made. The draft bill reads, ``The 
Administrator shall make a safety determination based on the 
best available science related to health and environmental 
considerations and in accordance with the weight of the 
scientific evidence.'' That is not a cost-benefit exercise.
    Another point I would make would be related to preemption. 
It is important to recognize that there is no preemption except 
where EPA would take preemptive actions. So it is not the case 
that entire statutes would be preempted at the State level or 
local level. Instead, only where there is a Federal action 
which, under the statute, would there be preemption. There is a 
suggestion that past EPA actions will preempt entire statutes. 
I would disagree. It seems to me that the purpose of that 
reference to preemption prior to the effective date is simply 
an effort to preserve preemption that has occurred. An example 
would be State or local PCB restrictions which the courts have 
determined were preempted years ago. Presumably PCBs would not 
go through a safety determination, at least soon in the 
process, because EPA has already comprehensively addressed 
PCBs. And yet, if preemption is tied solely to the safety 
determination process, then you would lose the preemption of 
State PCB laws without a savings clause.
    Mr. Shimkus. Let me give Dr. Bosley a chance with the 
remaining time I have.
    Ms. Bosley. Sure. I would like to reiterate that cost-
benefit analysis, the initial analysis is done without regard 
to cost at all. The safety determination is made really whether 
a chemical will or will not meet the safety determination. No 
cost is anticipated there.
    During the risk assessment portion, EPA can take costs into 
account. For instance, if a chemical cannot be tested 
economically, the chemical may go away all together, and if 
there is no other chemical waiting to take its place, then 
certain critical uses, very low-exposure critical uses, could 
be at risk.
    The other point is under Section 5. We hear a lot about 
data not being available under Section 5 and that the CICA 
doesn't take steps to address that. And it is not so surprising 
that manufacturers have to back up a long time before they go 
to market with a chemical, and you don't want to test when you 
don't have things like final specification and you don't have 
final physical form. You don't know if there is going to be a 
large market or a small market. So you don't usually test that 
far before something goes to market. But it doesn't mean that 
testing stops. So under Section 8(e), we give EPA after--post-
haste. After the testing is done, we give them that 
information. But that information is available eventually.
    Mr. Shimkus. Yes, in the first panel, and I will end up 
with this. And he is still in the audience. Mr. Belliveau 
mentioned being overly burdened to the EPA. And it is my 
understanding that that overly burdensome aspect is them asking 
for information.
    Ms. Bosley. Yes. That is part of it. Yes.
    Mr. Shimkus. All right. So thank you. I yield to the 
ranking member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. TSCA reform is about 
protecting human health and the environment from dangerous 
chemicals by systematically assessing and managing chemical 
risks in this country. Effective regulation will depend on 
strong science. Yes, this draft limits EPA's access to existing 
information and the Agency's ability to require testing.
    With that being said, Dr. Landrigan, should TSCA reform 
expand the scientific information available to EPA and the 
public about chemical risks?
    Mr. Landrigan. Yes, sir. I would absolutely say that EPA 
should have access to all of the best science in assessing 
risk.
    Mr. Tonko. Thank you. And to use your words, you said we 
are flying blind. Do you have suggestions for how this draft 
might be changed to achieve that goal?
    Mr. Landrigan. I am neither a lawyer nor a legislator. So I 
will speak in terms of principles rather than amending specific 
clauses. But I think there needs to be strong, very specific 
language about protecting vulnerable populations. There have to 
be clear deadlines. There has to be--the emphasis on safety has 
to far outweigh the emphasis on cost. Safety should come first. 
And there should be adequate funding for the Agency.
    Mr. Tonko. Thank you. Ms. Fendley, do you agree that TSCA 
reform should provide more scientific information about 
chemicals to the Agency, the public and those who are exposed 
to chemicals in their workplace?
    Ms. Fendley. Yes, I do.
    Mr. Tonko. And do you have suggestions for this panel for 
how this draft might be changed to achieve that goal?
    Ms. Fendley. Yes, specifically not grandfathering all of 
previous CBI claims which is included in the draft and also 
expanding the amount of information about safety and uses that 
the EPA can obtain and then share with the public and workers.
    Mr. Tonko. Thank you. We have heard from GAO and other 
stakeholders throughout this process that EPA needs more 
information and stronger testing authority. But this draft 
would restrict what science EPA can use to only studies that 
meet statutory criteria for best available science and 
information quality. By including these provisions, the draft 
puts courts in the position of determining what the science EPA 
should use, and they also allow for advances in technology.
    Ms. Fendley, do you have concerns about the good science 
provisions in this particular draft?
    Ms. Fendley. I do, yes.
    Mr. Tonko. And Dr. Landrigan, what mechanisms are in place 
within the scientific community to ensure that EPA uses good 
science in assessing chemicals?
    Mr. Landrigan. Scientists are constantly developing new 
techniques importing technologies from one branch of science to 
another to dig deeper into toxicology, and what scientists do 
to get that information out into the marketplace where it is 
available to EPA is that they put their results through peer 
review and publish them in widely read journals which are 
certainly accessible to EPA.
    Mr. Tonko. Should we be concerned about putting courts in 
the position of determining what science should be relied upon 
and what science should not be relied upon?
    Mr. Landrigan. Scientists are better able than the courts 
to judge the validity of science. I have always thought that.
    Mr. Tonko. Thank you. Well, I agree, and I am concerned 
about the costs and the delays that go along with litigation. 
It doesn't solve a problem. Perhaps it expands upon that 
problem. We need to expand the scientific information available 
to EPA and the public and not restrict the Agency's ability to 
consider relevant science and create new reasons for 
litigation.
    Mr. Chair, I think we have our work cut out for us to 
strengthen this bill. But I look forward to continuing to work 
with the subcommittee and the committee at large to address 
these issues. And with that I yield back.
    Mr. Shimkus. The gentleman yields back his time. And again, 
the Chair thanks him for his comments. The Chair now recognizes 
the gentleman from Florida, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much, and thank you for your testimony. This question is 
actually for Mr. Duvall. We frequently hear that 80,000 
chemicals in commerce number--the number is overstated. Was the 
inventory reset provisions under the current draft improve our 
understanding what is in commerce? If so, if that is the case, 
would the current draft improve the current situation under 
TSCA today?
    Mr. Duvall. Yes. The inventory reset would certainly 
provide valuable information for EPA, for the public and for 
the Congress to understand what the numbers are that are 
realistically in play. There are approximately 84,000 chemicals 
listed on the TSCA inventory but only about 7,800 chemicals 
were reported in the 2012 Chemical Data Reporting Rule. 
Presumably since not all chemicals in commerce are reported per 
CDR, there are some number higher than 7,800. But it is helpful 
to understand that the universe of chemicals that EPA should 
focus its scarce resources on is of limited number and not 
something like 84,000.
    Mr. Bilirakis. Thank you. Next question again for Mr. 
Duvall. The current draft provides for the reentry of inactive 
chemicals to active status on the inventory. Again, I apologize 
for my laryngitis. Would you describe that process as one that 
can be accomplished by chemical manufacturer or processor 
without an undue amount of bureaucratic red tape?
    Mr. Duvall. Yes. My understanding is that the process is 
mostly a notification requirement. Simply send a notice into 
EPA saying that you have met the criteria for an active 
substance, and EPA would then add it to the active substance 
list.
    Mr. Bilirakis. Why is it important to the free flow of 
commerce and the economy in the United States?
    Mr. Duvall. I am--why is what?
    Mr. Bilirakis. Why is it important to the free flow of 
commerce and the economy in the United States?
    Mr. Duvall. I see the inventory reset provision as 
primarily a tool to help EPA focus its resources. It is 
important for EPA to protect the people of the United States, 
protect its environment, including vulnerable subpopulations. 
But in doing so, it can't do everything at once. It must focus 
on its resources in a rational, reasoned way and then follow 
through. And the inventory reset is one tool among others that 
the draft bill would provide to EPA to help it do a better job 
than it has been able to do so far under current TSCA.
    Mr. Bilirakis. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from California, Mr. McNerney, for 
5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I want to reiterate 
a statement that I made that public concern about chemical 
safety is a significant issue, and unless we address that, then 
we are not going to get anywhere by passing laws that don't 
achieve that goal.
    One of the questions I have is about--I mean, when we hear 
testimony that is sort of contradictory, I always get confused. 
Mr. Duvall, you seem to be saying that you think that the CICA 
will reduce the legal burden on the EPA to move forward with 
the regulations. Is that your opinion?
    Mr. Duvall. Yes, it is. EPA tried for 10 years to regulate 
asbestos and failed, in part because it did not do what the 
statute told it to do. One of the things that the statute told 
it to do was to identify the least burdensome alternative. And 
the draft bill would delete that requirement. There are also a 
number of burdensome procedural processes that EPA must go 
through to regulate under current Section 6. Those procedures 
would also be dropped. What would be left would be a broad 
authority for EPA to select appropriate risk management in the 
case where it had determined that there was an unreasonable 
risk that needed to be redressed, and only consider in doing so 
key considerations that are in the nature of good governmental 
decision-making, such as are there net benefits? The net 
benefits requirement to be considered should not be a 
straightjacket. The----
    Mr. McNerney. Well, let me stop you there if you don't 
mind. One of the questions that was asked earlier I thought a 
lot of by my colleague from Texas, whether or not the priority 
should be given in decision-making to risk--the cost benefit or 
health and safety risks. Would you just give a yes or no answer 
to whether----
    Mr. Duvall. Risk. Clearly risk-based.
    Mr. McNerney. Ms. Bosley?
    Mr. Duvall. And for prioritization, clearly it should be a 
risk-based process.
    Ms. Bosley. I agree. Risk-based is the best scenario.
    Mr. McNerney. Mr. Stem?
    Mr. Stem. Health and safety.
    Mr. McNerney. OK. Dr. Landrigan?
    Mr. Landrigan. Health and safety.
    Mr. McNerney. Ms. Fendley?
    Ms. Fendley. Health and safety.
    Mr. McNerney. So that was unanimous. I mean, both panels, 
every person agreed that health and safety should be the 
priority. The CICA creates new prerequisites for limiting 
approved use of chemicals blocking the EPA from taking action 
unless there is a cheaper substitute available. But as every 
member of both panels agreed, health risks should be the 
primary purpose or should be the primary deciding factor of the 
law.
    Dr. Landrigan?
    Mr. Landrigan. I absolutely agree with that, that health 
should be the primary driver.
    Mr. McNerney. So having a cheaper substitute, requiring the 
determination of a cheaper substitute should not be a 
determining factor?
    Mr. Landrigan. In my opinion, not.
    Mr. McNerney. OK. Ms. Fendley?
    Ms. Fendley. I would agree.
    Mr. McNerney. OK. With that, I am going to yield back, Mr. 
Chairman.
    Mr. Shimkus. The gentleman yields back. At this time, I 
want to really pose a question to the panel. We have got two 
hearings going on at the same time, and votes are going to be 
called in about 20 minutes. There is a desire to let my 
colleagues get back from this other hearing walking back and 
forth. One might be coming in now. One is coming in now. So I 
think I have got an agreement with my colleague that once votes 
are called we will stop and then we will adjourn the hearing, 
but we would like to keep going on until that time. And it may 
require in essence a second, if I have to bounce back and forth 
now and then. And you are agreeable to that? Great. And now I 
would like to recognize my colleague, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I apologize. As our 
witnesses know, Wednesday has got to be the worst day on the 
Hill.
    Mr. Shimkus. Your apology is noted into the record.
    Mr. Green. First of all, I have some questions, but I 
represent an area that has a whole lot of United Steelworkers. 
In fact, four of our five refineries and a lot of chemical 
plants. So obviously steelworkers have an impact on this and 
their members do because they are my constituents.
    My first question, Ms. Fendley, as a representative of an 
organization whose members regularly work in close contact with 
chemicals, do you believe that the Chemicals in Commerce Act 
establishes a working, appropriately protective safety standard 
that allow the EPA to ban dangerous chemicals that your members 
come in contact with on a regular basis?
    Ms. Fendley. No, I do not. It does not sufficiently amend 
TSCA.
    Mr. Green. OK. Do you believe the Chemicals in Commerce Act 
would offer any improvement to the health and safety of the 
chemical workers under current law?
    Ms. Fendley. No, I do not.
    Mr. Green. OK. You mentioned in your testimony that draft 
removes the least burdensome language found in current TSCA but 
recreates later in Section 6. Can you elaborate on that claim?
    Ms. Fendley. Sure. So it recreates the least burdensome 
requirement using different language that requires that 
considerations about net benefits and cost effectiveness are 
used when regulating a chemical.
    Mr. Green. OK. The other thing I noticed in the draft, do 
you believe that the Federal statute should explicitly 
guarantee whistle-blower protections and the right to know for 
people who work on the plant site?
    Ms. Fendley. I do, absolutely. That is very important.
    Mr. Green. OK. Mr. Chairman, I know this is a work in 
progress, and I think these hearings are what we are trying to 
do is lay a groundwork on how we need to look at the draft. But 
I appreciate your effort to get us there.
    Dr. Landrigan, why should EPA be required to consider 
vulnerable populations such as children and pregnant women in 
safety determinations?
    Mr. Landrigan. The rationale for that goes back 20 years. 
In 1993 I chaired a report from the National Academy of 
Sciences that systematically examine differences between 
children and adults and their vulnerability to toxic chemicals. 
And we found overwhelmingly that children are more sensitive to 
chemicals than adults. And we concluded further that children 
require higher levels of protection in law than adults. And 
that logic was actually incorporated by the Congress into the 
Food Quality Protection Act, the Federal pesticide law.
    I would argue that the same logic ought to apply to all 
chemicals, whether they are pesticides or commercial chemicals.
    Mr. Green. One of the questions I asked to the first panel 
is if a substance is designated as a low priority under the 
draft by EPA and then several years later, scientific study 
comes out that shows that substance may be hazardous to human 
health, I don't think the draft has it in there, but should EPA 
have the authority to consider the new information in order to 
go back and recategorize that substance as a high priority?
    Mr. Landrigan. Yes, sir. I think it is essential that they 
should have access to that new information, and it is also--
picking up on a conversation a moment or two ago, it is 
important to recognize that new information is very frequently 
going to come out from epidemiologic studies or non-standard 
toxicologic studies using novel techniques that don't fit the 
science definition that is in the bill as it now stands. And 
the EPA has to be given the power to broadly consume new 
science in the marketplace.
    Mr. Green. Well, you know, if a study is done this year and 
the designation is a low priority--we also know that chemistry 
changes, everything changes over the years. And I know the 
manufacturers want some certainty on what they are doing. But 
we also know that at any given time something is going to 
change, whether it is whether we find out from studies or that 
there is a problem with it and that is what concerns me. I want 
to give EPA the authority, but I want to make it, you know, 
science-based enough that we just don't have these continual 
lawsuits on something that, you know, really is not going after 
the issue.
    So our goal is to protect folks but also to make sure that 
there is some certainty there. And so that is why this is a 
working draft, and I hope we will address some of that in 
future drafts.
    Mr. Landrigan. Yes. You know, there may be a parallel here 
in food and drug law or in the--chemicals intended to be 
pharmaceuticals were extensively tested before they come to 
market, and certain criteria are met and then FDA lets the 
chemical come to market. But once it is out there, the process 
doesn't end and post-marketing surveillance continues. And we 
ought to have that same kind of provision here in the universe 
of consumer and industrial chemicals.
    Mr. Green. OK. One of the things that--I am out of time but 
not only before a chemical is approved or it is set as a low 
priority or high priority, if there is something later on that 
the manufacturer discovers in their product, shouldn't they be 
required to come back to EPA in this case, just like a drug 
manufacturer should go back to FDA?
    Mr. Landrigan. I think it should be mandatory and I think 
further that there should be penalties attached to failure to 
report.
    Mr. Shimkus. I thank my colleague. Mr. Green, Mr. Duvall is 
trying to get your attention on responding to one of those 
questions. I wanted to give him--well, I am taking my time now 
in the second panel so but since he was trying to respond, I 
will use my time to let him do that.
    Mr. Duvall. Thank you. I wanted to call Mr. Green's 
attention to a provision that reads, ``The Administrator may 
revise the priority designation of a chemical substance based 
on consideration of new information.'' So there is a provision 
there that allows reprioritization at any time. If the language 
isn't right, then it should be fixed. But I think the idea is 
there.
    Mr. Green. Thank you.
    Mr. Duvall. And I might mention also that current TSCA has 
a provision requiring manufacturers and others who obtain 
significant information about chemical hazards to report it to 
EPA immediately, and there are stringent penalties for not 
doing so.
    Mr. Shimkus. Great. I appreciate that. Using my time in the 
second round now, I am also joined by Mr. Harper, and we are 
waiting for my friends on the other side to show also.
    Let me go back to Mr. Duvall. In your testimony you say 
that Section 5 would codify and strengthen EPA's current 
practices. You know, when you have a Congressional hearing, you 
hear--I mean, I am like Mr. McNerney. I mean, you hear, hell, 
this is the worst thing we have ever seen written and no, this 
thing is working pretty good. So we are trying to figure out 
where the truth is. In your testimony you do say that. So what 
is your basis for that statement?
    Mr. Duvall. Section 5 of TSCA today is short on procedure. 
But EPA in its regulations in Part 720 has identified a number 
of critical procedures such as filing a notice of commencement 
of manufacture at the end of the process, which is not 
mentioned in the statute. What the draft bill does is to 
incorporate into law many of the procedural provisions that EPA 
has adopted by regulation and included them as a way of 
ensuring that since they have worked well, that EPA should 
continue to use them.
    The bill improves the Section 5 primarily through changing 
the situation today where EPA can conclude that it would just 
let the review period expire without reaching a decision as to 
whether there is a problem with the chemical or not. The draft 
bill would require EPA to make a determination, and if EPA were 
to find that it doesn't have sufficient information, it is 
given a powerful tool for requiring the submitter to develop 
that information. The EPA can hold up the resolution of the 
review period until the information becomes available or it can 
allow the chemical to enter the marketplace but still require 
the manufacturer to submit the information so that it can be 
considered later in the prioritization process.
    Mr. Shimkus. Speaking of the same section, why is the 
exemption based on, and I quote, ``likelihood of risk''? Why is 
that unprecedented authority?
    Mr. Duvall. Well, it recognized that Section 5(e) of TSCA 
today is based on it is likely to pose an unreasonable risk 
provision. So that Section 5(e) authorizes EPA to take 
regulatory action on a new chemical. When that finding is made, 
this bill would do essentially the same thing. It would----
    Mr. Shimkus. So it is not unprecedented that we have this 
language----
    Mr. Duvall. It is not unprecedented. It actually 
strengthens EPA's ability to regulate new chemicals where 
appropriate.
    Mr. Shimkus. And Dr. Bosley, some call for more extensive 
testing on chemicals than the Chemicals in Commerce mandates. 
You have spoken before on minimum data sets and base set 
requirements like those in Europe. Could you please tell us 
again whether public health is any better protected by those 
kinds of mandatory requirements?
    Ms. Bosley. They are not. Most industrial chemicals are not 
intended to be released to the environment or exposed to any 
population, whether vulnerable or not. Those sorts of testing 
requirements that are blanket might drive those chemical 
manufacturing from the United States. We simply--you know, we 
operate in a market economy, and we simply can't afford to----
    Mr. Shimkus. Where would they go?
    Ms. Bosley. To China, to India, to Malaysia.
    Mr. Shimkus. And what is their safety regime?
    Ms. Bosley. Most of those countries have much less 
stringent safety regimes that change depending on the political 
nature of the environment there as well. So it is much harder 
for U.S. manufacturers to import into those countries, given 
the same chemical that might be produced in those countries. 
They would much favor those.
    Mr. Shimkus. And I take obviously the saving grace right 
now for this country is our natural gas exploration and really 
holding those jobs. But I think your point is well stated that 
the public should not be deceived that if we move to a regime 
that is costly, ineffective by the manufacturers, they could 
move overseas with less stringent.
    Ms. Bosley. Yes, in some cases we couldn't afford to 
manufacture the chemical here in the United States any longer.
    Mr. Shimkus. And my friends from California are 
experiencing what? They are experiencing----
    Ms. Bosley. I can tell you I have no customers in 
California.
    Mr. Shimkus. California is also experiencing a 10-day lag 
from the air pollution from China reaching----
    Ms. Bosley. Right.
    Mr. Shimkus [continuing]. The West Coast.
    Ms. Bosley. The coast. That is right.
    Mr. Shimkus. So that has to be part of this debate, jobs 
and the economy. So with that I will yield back my time and 
yield to Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. This draft legislation 
suggests that EPA could very quickly sort the universe of 
chemicals into two categories. The first category would be 
known as high priority and chemicals in this category would be 
further assessed to ensure their safety. The second category 
would be known as a low priority, but this is a bit of a 
misnomer because these chemicals would be dismissed of any 
further examination. The idea is that thousands of chemicals 
would fall into this low-priority category.
    So Dr. Landrigan, in your view, do we have the information 
we need to complete such an undertaking with confidence that we 
are protecting public health?
    Mr. Landrigan. So we don't have full information, but there 
are some guidelines that we can use to help EPA to move 
forward. One guideline would be to assign highest priority to 
the chemicals that are most widely found in the American 
population in the rolling surveys that the CDC now does every 
year. I am sure you are aware that CDC, in their National 
Biomonitoring Program, is picking up measurable levels of 
several hundred chemicals in the bodies of most Americans, 
synthetic chemicals, most of which did not exist in 1960. So to 
be sure, many chemicals stay inside the four walls of the 
chemical factories. Maybe they could be given lower priority. 
But the chemicals that are getting out that are widely 
distributed in people and the environment need to be assigned 
higher priority. Two more criteria for judging priority is 
evidence of toxicity as has already appeared in toxicological 
laboratories published in the peer-reviewed literature, and 
finally persistence in humans in the biosphere.
    Mr. Tonko. Thank you. And does EPA know enough to quickly 
go through the TSCA inventory and rule out thousands of 
chemicals as potential risks?
    Mr. Landrigan. No, they don't. And the problem is it is a 
Catch-22 given that so little toxicologic testing has been done 
on so many chemicals in commerce. EPA is flying blind. There 
are some chemicals that we know a lot about that have been 
studied extensively but many, many more that are in wide use 
that have been little studied.
    The biomonitoring survey from CDC offers some protection. 
It is not foolproof because they can only measure what they 
have the technology to measure.
    Mr. Tonko. And what kind of information or testing will the 
EPA need in order to assess which chemicals in commerce are 
causing health effects or----
    Mr. Landrigan. The principles for selecting chemicals would 
be the ones I just mentioned, widespread use, some evidence of 
toxicity, persistence. Beyond that there is a lot of expert 
judgment here. They would clearly have to consult with their 
colleagues at the National Institute of Environmental Health 
Sciences of the NIH or developing new paradigms for high 
through-put toxicologic testing.
    Mr. Tonko. And every witness on both panels today agreed 
that we should abandon the cost-benefit standard in current 
law. Unfortunately, the discussion draft continues to use the 
unreasonable risk standard. Mr. Duvall, you have assured the 
subcommittee that the term unreasonable risk in the discussion 
draft needs something completely different than the term 
unreasonable risk under current law. A lot of experts have 
expressed grave concerns that that is an incorrect statement or 
it is wrong in substance in order to address this concern and 
to address the stakeholders' concerns together. Would you agree 
that it would be simpler to no longer use unreasonable risk and 
instead choose a new term that perhaps is clearly defined as 
not utilizing a cost-benefit approach? Is there clarification 
needed there?
    Mr. Duvall. If there is another verbal formula that will 
achieve what is intended to be achieved, then that would be 
fine. During the TSCA legislative discussions for several 
years, there is really only one other verbal formula that has 
been offered and that is reasonable certainty of no harm. And 
that formulation has its own problems. If there could be a 
different, a third one, I think it would be worthy of 
discussion.
    The unreasonable risk language has been interpreted 
primarily by courts as requiring a cost-benefit analysis. Since 
the safety determination itself is a science-oriented, risk-
based analysis, cost doesn't seem to make sense in that 
context. Cost considerations make sense in the context of 
making risk management decisions. One suggestion I would make 
would be to ensure that legislative history clarifies the 
intent of Congress that costs and benefits not be waived in 
making a safety determination. The kind of legislative history 
together with the statutory text would go a long way to keeping 
the courts from going in the direction of finding cost benefit 
required in the safety determination.
    Mr. Tonko. Thank you. And I believe my time is more than 
expired. I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes Mr. Harper from Mississippi for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. Mr. Stem, if I may ask 
you a few questions, in your written testimony you note the 
importance of EPA being required to systematically evaluate all 
chemicals in commerce including TSCA's grandfathered chemicals. 
Why is that important?
    Mr. Stem. Because science changes. We develop new 
information. Chemicals that have been grandfathered that might 
be new information on that. If there is no new information, 
there is no science change in the chemicals and it is a process 
that would benefit the people.
    Mr. Harper. CICA requires prioritization of chemicals in 
order for EPA to make safety determinations. Why is this 
important in a reformed TSCA and how does the CICA address it?
    Mr. Stem. Well, it doesn't adequately address it. The 
concept, in answer to your question, is that the EPA should be 
given the authority to require the company that is 
manufacturing the chemical to do most of the initial testing to 
present that when they present the product and ask for 
commercial use. CICA does not adequately do that.
    Mr. Harper. All right. So what would be your recommendation 
then?
    Mr. Stem. That EPA require that, that the EPA not have to 
start testing the product.
    Mr. Harper. OK.
    Mr. Stem. The manufacturer of the product should conduct 
valid scientific testing and produce that testing when they 
present the product to EPA asking for commercial use.
    Mr. Harper. You note in your written testimony that if 
necessary, CICA allows EPA to reclassify a low-priority 
chemical as high priority. Why is this important?
    Mr. Stem. Basically because of reevaluation of the science 
involved and the potential use or mixture of the original 
chemical that was classified at one time as a low priority.
    Mr. Harper. Mr. Chairman, I yield back.
    Mr. Tonko. Just one item of business, Mr. Chair. Would you 
entertain a request for a unanimous consent?
    Mr. Shimkus. I would.
    Mr. Tonko. I request unanimous consent to enter 38 letters 
into the hearing record. These letters have come in from across 
the country and represent the views of groups in the public 
health, environmental, labor, scientific and small business 
communities. All express the need for TSCA reform and concerns 
with this current draft. Letters have been shared with your 
staff.
    [The letters are available at http://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=101890.]
    Mr. Tonko. I also request unanimous consent to enter into 
the record the statement of our fellow Energy and Commerce 
member, Representative Bobby Rush.
    Mr. Shimkus. Without objection, so ordered.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Chairman Shimkus, Ranking Member Tonko, and members of the 
subcommittee: thank you for allowing me to participate in 
today's hearing on the Chemicals in Commerce Act. Though I am 
not a member of this subcommittee this issue is one that I care 
about deeply and I appreciate your consideration of that.
    Mr. Chairman, let me say that I am excited to see movement 
on this important issue. I am, however, discouraged by the 
discussion draft presented. The bill we have been shown 
presents some dangerous changes that will affect our 
communities, and I would like to take a moment to discuss 
those:
    First, this bill discontinues use of the Centers for 
Disease Control and Prevention's standard of ``vulnerable 
populations'' in favor of a newly created standard of 
``potentially exposed subpopulation''. While the CDC clearly 
defines vulnerable populations based on quantifiable standards 
such as race/ethnicity, socio-economic status, geography, 
gender, age, disability status, and/or risk status related to 
sex and gender this bill creates a vague definition. 
Specifically, the bill defines this subpopulation as ``a group 
or groups of individuals within the general population who may 
be differentially exposed to a chemical substance under the 
intended conditions of use or who may be susceptible to more 
serious health consequences from chemical substance exposures 
than the general population, which where appropriate may 
include infants, children, pregnant women, workers, and the 
elderly.''
    Mr. Chairman, it is very likely that the standard presented 
in this bill would not have protected my constituents in the 
Village of Crestwood, Illinois. When it was found that their 
drinking water was contaminated with perchloroethylene--an 
industrial solvent used primarily in dry cleaning--it was the 
entire town that was impacted; they were vulnerable because of 
their geography. Furthermore, this chemical was clearly being 
used outside its scope of ``intended conditions of use''. In 
this scenario, what protection would the people of Crestwood 
have had?
    This brings me to my second point of concern: ``intended 
conditions of use''. I think all of my colleagues would agree 
with me in saying that chemicals should be used as intended: in 
a safe manner. Unfortunately, as my example above has 
demonstrated, this is not always the case. In instances of 
malfeasance how do we keep our constituents safe?
    Lastly, Mr. Chairman, I would like to discuss this bill's 
preemption of State and local laws. Time and time again, my 
friends on the other side of the aisle have discussed the need 
for preserving the States' ability to protect their citizens. 
We have heard how the States know best what their communities 
need. And now, for an inexplicable reason, all of that thinking 
has been done away with. Not only does this bill prohibit 
States and local governments from passing new laws, it prevents 
them from enforcing already existing laws. The very laws that, 
in many communities, have been the principle safety measure. 
The States and local communities know better than we do the 
biggest threats they face. Why prevent them from protecting 
their residents?
    In short, Mr. Chairman, while I am encouraged by the 
discussion that we are about to witness I strongly urge this 
committee to go back to the drawing board and bring forward a 
bipartisan bill that protects our communities.
    Thank you, I yield back the balance of my time.

    Mr. Shimkus. It was asked during the hearing by Mr. Cik and 
you asked if we could submit that pediatrician document. We 
would like to see it first, and having seen it, then we will 
accept it. But that is a follow-up just from the hearing, if we 
can do that. I guess I have a unanimous consent request also 
for this letter with a bazillion people in support of the 
legislation.
    Mr. Tonko. How many zeroes in bazillion?
    Mr. Shimkus. I hope it has been shared with your staff. 
They couldn't carry it in, there were so many. But without 
objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Shimkus. We want to thank you all for coming. We know 
we have a long way to go. So we are going to continue to work. 
We believe there will be another legislative hearing on the 
draft. It may be an adjusted draft based upon the consultations 
we are having. We do want to encourage all stakeholders to 
continue to work with us. Because of the diversity of opinion, 
we are not going to get everybody 100 percent on board. Even 
those who will despise the legislation, we want them to despise 
it with a smile that we made a good effort and attempt to move 
forward.
    So with that, I appreciate your patience, and the hearing 
is now adjourned.
    [Whereupon, at 1:04 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
